<html>
<title> - ``MEDICAL'' MARIJUANA, FEDERAL DRUG LAW AND THE CONSTITUTION'S SUPREMACY CLAUSE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




    ``MEDICAL'' MARIJUANA, FEDERAL DRUG LAW AND THE CONSTITUTION'S 
                            SUPREMACY CLAUSE

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2001

                               __________

                            Serial No. 107-2

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               ----------
                   U.S. GOVERNMENT PRINTING OFFICE
72-258                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                  David A. Kass, Deputy Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               ------ ------
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                      Chris Donesa, Staff Director
                    Sharon Pinkerton, Chief Counsel
                          Conn Carroll, Clerk
           Denise Wilson, Minority Professional Staff Member
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 27, 2001...................................     1
Statement of:
    Nagel, Laura, Deputy Assistant Administrator, Diversion 
      Control, Drug Enforcement Administration; Bill McCollum, 
      former chairman, U.S. House Subcommittee on Crime; Dan 
      Lungren, former California State Attorney General; and 
      Janet Joy, Senior Program Officer, Division of Neuroscience 
      and Behavioral Health, Institute of Medicine...............    55
    Sembler, Betty, founder and Chair, Drug Free America 
      Foundation; Joyce Nalepka, president, America Cares; and 
      Rob Kampia, executive director, Marijuana Policy Project...     8
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, prepared statement of..........................    37
    Kampia, Rob, executive director, Marijuana Policy Project, 
      prepared statement of......................................    32
    Lungren, Dan, former California State Attorney General, 
      prepared statement of......................................    78
    McCollum, Bill, former chairman, U.S. House Subcommittee on 
      Crime, prepared statement of...............................    69
    Nagel, Laura, Deputy Assistant Administrator, Diversion 
      Control, Drug Enforcement Administration, prepared 
      statement of...............................................    58
    Nalepka, Joyce, president, America Cares, prepared statement 
      of.........................................................    17
    Sembler, Betty, founder and Chair, Drug Free America 
      Foundation, prepared statement of..........................    10
    Souder, Hon. Mark, a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4

 
    ``MEDICAL'' MARIJUANA, FEDERAL DRUG LAW AND THE CONSTITUTION'S 
                            SUPREMACY CLAUSE

                              ----------                              


                        TUESDAY, MARCH 27, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:42 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Weldon, Barr, Jo Ann Davis 
of Virginia, and Cummings.
    Staff present: Chris Donesa, staff director; Sharon 
Pinkerton, chief counsel; Charley Diaz, congressional fellow; 
Conn Carroll, clerk; Tony Haywood, minority counsel; Denise 
Wilson, minority professional staff member; Ellen Rayner, 
minority chief clerk; Earley Green, minority assistant clerk; 
and Lorran Garrison, minority staff assistant.
    Mr. Souder. The subcommittee will come to order. Good 
afternoon and thank you all for coming.
    We hear repeatedly that one of the keys to an effective and 
meaningful drug policy is to reduce demand in the United 
States, whether it be in hearings or meetings with government 
officials and drug victims, more popular sources like 
``Traffic,'' the ``West Wing,'' or last week's series on 
``Nightline,'' or even from foreign leaders. I expect the 
subcommittee will aggressively explore demand reduction issues 
during this Congress, beginning with today's hearing examining 
one of the most troubling demand reduction and law enforcement 
issues we face today, the effect of so-called ``medicinal'' 
marijuana initiatives on attitudes toward drugs and on Federal 
law enforcement.
    It should be obvious that one of the cornerstones of even a 
basic demand reduction strategy is to tell our citizens not to 
use illegal drugs. Eight States and the District of Columbia, 
however, have adopted State laws which have the effect of 
encouraging their citizens to use illegal drugs for medicinal 
purposes. These initiatives are wholly contrary to Federal 
statutes, which have explicitly stated by law that marijuana, 
``has no currently accepted medical use in treatment in the 
United States.'' In addition, they sent even more confusing and 
contradictory messages to our already confused children at a 
time when their attitudes about marijuana use may be open to 
bad influences and they may be led to even harder drugs.
    Let me be very clear here. The critical issue here is not 
whatever medicinal benefits smoked marijuana may or may not 
have. Federal law has established proper procedures to review 
that question, which have not been followed. The issue is a 
more fundamental one that goes to the heart of our Federal 
Government and Federal law enforcement. In our Federalist 
system, even strong advocates of States rights, among which I 
would count myself, have to agree that States simply cannot 
pass their own laws contrary to Federal law whenever they 
disagree with the Federal law. The result would be anarchy. And 
we have literally seen symptoms of anarchy with respect to 
marijuana enforcement as a result of these State initiatives.
    In California, Federal and State agents have told 
subcommittee staff that the initiative there, proposition 215, 
has led to uncertainty on the part of State and local law 
enforcement and has had the practical effect of curtailing most 
marijuana enforcement in the State. The city of Oakland has 
repeatedly declared, ``a public health emergency,'' because 
citizens cannot obtain marijuana. State judges have ordered 
local police to return seized marijuana to its owners, forcing 
the DEA to detail agents to seize very small amounts of 
marijuana held by local officers. About a week ago I received a 
briefing from the DEA in San Francisco, that marijuana growers 
are attempting to claim that large crops are medicinal in 
purpose and have threatened to hold Federal agents personally 
liable for the cost of the plants. The fundamental relationship 
between the Federal and State and local law enforcement relies 
on a vigorous marijuana enforcement by States and localities. 
That relationship has now been called into question.
    I believe that this hearing is important for several 
reasons. First, we will have an opportunity to review serious 
issues of Federal law enforcement and public attitude. The 
Supreme Court will also consider related issues tomorrow when 
it hears oral argument in the Oakland Cannabis case, which will 
consider whether State initiatives or other authority provides 
a medical necessity defense to the clear Federal law against 
marijuana use for any stated purpose. I commend the Justice 
Department and the Solicitor General for their advocacy in this 
case and hope that the court is able to swiftly bring some 
clarity to the field.
    Second, we will have an opportunity to review concerns that 
these issues fundamentally are not about sick people, but 
instead about backdoor efforts at outright legalization of 
marijuana. And third, we will obtain some long-term perspective 
from respected veterans in the field.
    We have some excellent witnesses with us today, and I thank 
you all for coming. On our first panel we have concerned 
citizens. Betty Sembler is the founder and Chair of Drug Free 
America Foundation, and Joyce Nalepka is the President of 
America Cares. Both are tireless and unwavering advocates for 
our families and children, and it is a real pleasure to work 
with them and have them here today. We also have Rob Kampia 
from the Marijuana Policy Project, who is an advocate of 
medicinal marijuana initiatives and medical marijuana use.
    On our second panel, we have from the DEA Laura Nagel, who 
is Deputy Assistant Administrator for Diversion Control. We 
will hear from two former Members of Congress, both of whom 
have been extremely active on this issue. I would like to 
welcome back Bill McCollum, former chairman of the Subcommittee 
on Crime and author of the legislation regarding the State 
initiatives which passed the House 310 to 93, and Dan Lungren 
of California, who is also the former Attorney General of 
California and in that role has had substantial experience with 
proposition 215. I thank you both for traveling here today and 
for sharing our perspectives. We also have Dr. Janet Joy, of 
the Institute of Medicine of the National Academy of Sciences, 
who edited an IOM study on the potential uses of marijuana.
    We look forward to all your testimony. I would now like to 
recognize Mr. Cummings for an opening statement.
    [The prepared statement of Hon. Mark Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.001
    
    [GRAPHIC] [TIFF OMITTED] T2258.002
    
    [GRAPHIC] [TIFF OMITTED] T2258.003
    
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
join you in welcoming our witnesses here this afternoon, and I 
want to thank them, particularly Mr. Kampia and Dr. Joy, who 
had to come on very short notice, but I thank you for making 
yourselves available. The diversity of perspectives represented 
here today ensures that we will hear the full spectrum of views 
on the very contentions subject of this hearing, and I wanted 
to commend you for your willingness to be inclusive.
    Mr. Chairman, this hearing's subject is not only 
contentious, it is also a bit more complicated than the title 
of the hearing lets on. As we all know, the Supreme Court is 
poised to hear argument for the first time on the 
constitutionality of State laws making legal under State law 
conduct that is expressly prohibited under Federal statutory 
law; namely, the possession and use of marijuana for medicinal 
purposes. No doubt because of this impending event today's 
hearing has been cast in terms of the constitutional question 
presented to the court, broadly speaking whether the supremacy 
clause will allow the State laws to operate in the context of a 
Federal Constitution.
    One thing we are certain not to accomplish this afternoon, 
however, is the resolution of that question. We will hear many 
of the arguments that the court will hear tomorrow. But it will 
be the court's job, not ours, to evaluate them and issue a 
definitive ruling. The constitutional question raised by the 
State ballot initiatives and the legislation that have been 
passed is but one of several dimensions to the debate over 
medical marijuana in Congress. And by and large the members on 
this panel and the witnesses we are about to hear expound about 
the constitutional merits of the State ballot initiatives 
question do not come by their position solely on the basis of 
jurisprudential philosophy. Inescapable among the issues raised 
is the fundamental question of whether the medical use of 
marijuana should be legal under any statutory scheme; that is, 
does marijuana offer medical benefits that outweigh its harmful 
attributes such that its legalization for the purposes of 
treating certain medical conditions is justified.
    Some of my colleagues believe absolutely that it does not. 
Others are convinced that it does. Between these two camps are 
those who support rigorous scientific investigation to 
determine the safety and efficacy of marijuana in the treatment 
of conditions in which its effectiveness may be indicated. Even 
among those in the latter group there is disagreement on the 
question of whether the terminally ill who might benefit and 
for whom the long-term harms may be irrelevant should have 
immediate access to medical marijuana while studies on its 
effect are pending.
    Separate from the health ramifications of medical marijuana 
initiatives is the question of process. Should State's have the 
authority in effect to establish separate standards and do the 
contrasting State laws pose an undue obstacle to the effective 
enforcement of the Federal drug laws in the States that have 
adopted them? Does the current controversy suggest flaws in the 
process for scheduling drugs under the Controlled Substances 
Act?
    As I have noted, the Supreme Court will soon resolve 
whether the State laws can provide a valid defense to Federal 
defendants charged with criminal possession and distribution. 
Whatever the outcome of the pending legal controversy might be, 
it will not provide the last words on any answer to many of 
these questions. Congress will inevitably be left with policy 
decisions to make.
    I look forward to hearing the perspective of our witnesses 
today and I thank them for being here.
    Mr. Souder. Before proceeding, I would like to take care of 
some procedural matters. I first ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, it is so ordered.
    We will now begin our first panel, which is made up of 
citizens who have expressed concerns regarding the issue before 
us today. I would like to welcome Betty Sembler, Joyce Nalepka 
and Rob Kampia. As an oversight committee, it is our standard 
practice to ask all our witnesses to testify under oath. If the 
witnesses will stand and raise their right hands, I will 
administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show the witnesses have all 
answered in the affirmative.
    We will now recognize the witnesses for their opening 
statements. I would like to thank you for being here today. We 
would like you to summarize your testimony in 5 minutes. You 
will see the lights. There is a yellow with 1 minute to go, and 
you may put your full statement in the record.
    Mrs. Sembler, do you have an opening statement?

   STATEMENTS OF BETTY SEMBLER, FOUNDER AND CHAIR, DRUG FREE 
 AMERICA FOUNDATION; JOYCE NALEPKA, PRESIDENT, AMERICA CARES; 
  AND ROB KAMPIA, EXECUTIVE DIRECTOR, MARIJUANA POLICY PROJECT

    Mrs. Sembler. Thank you very much. Good afternoon and thank 
you very much for the opportunity to speak before you today. As 
you said, I am the president and founder of Drug Free America 
Foundation, Inc., an organization whose mission is to expose 
the hidden agenda of those who wish to legalize all Schedule I 
drugs in our country.
    Their agenda includes subverting Federal supremacy, 
manipulating public opinion, and perpetrating a fraudulent 
marketing campaign touted as compassion for the sick. We have 
all witnessed this campaign, some of us agape at the blatant 
untruths used to convince voters in eight States and the 
District of Columbia that smoked crude marijuana is really 
medicine, quote-unquote, dressed up to look like a weed.
    These drug pushers in coat and tie are intent on using any 
means possible to market addictive, unsafe, life threatening 
substances to our children. In a clear violation of Federal 
drug laws and the Constitution's supremacy clause, these 
business men disguised as medical experts, using tactics worthy 
of the Goebbels award, Hitler's Propaganda Chief, distort 
truth, eschew legitimate research, manufacture facts and 
bombard the public with disinformation.
    For example, they continually say the war is lost, that our 
prisons are overflowing with nonviolent drug offenders, no use 
education is to be replaced with so-called responsible use 
instructions. Examples abound.
    It is a feckless endeavor to look any further for 
explanations that would adequately illuminate their 
motivations. We already know what their motivation is. It is 
documented by their own words and certainly their own actions. 
The only thing standing in their way is the Constitution of the 
United States of America.
    To sweep away the protection offered by that august 
document, the money bags have employed wordsmiths so they can 
hide behind the first amendment, and therefore cleverly use the 
word ``recommend'' as a euphemism for ``prescribe.''
    If you read the fine print on any of the initiatives or 
examine the tactics that are being used in States that have no 
initiative process, it becomes very clear that this is not 
about compassion and it is certainly not about medicine. It is 
about softening public opinion without regard for truth to 
promote the acceptance that to chemically alter one's mind is 
an inherent right.
    The premise is that old excuse about a victimless crime. 
There is no such thing as a victimless crime. The parents of 
this Nation are helpless without you as our elected 
representatives stepping up to the plate and telling the people 
the truth, ``you have been misled.''
    We cannot afford to tear up our constitution in order to 
provide inordinate profits to those who ignore the safeguards 
intended to protect us.
    Thank you very much. May I yield the rest of my time to my 
colleague Joyce Nalepka?
    Mr. Souder. Yes.
    [The prepared statement of Mrs. Sembler follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.004
    
    [GRAPHIC] [TIFF OMITTED] T2258.005
    
    [GRAPHIC] [TIFF OMITTED] T2258.006
    
    [GRAPHIC] [TIFF OMITTED] T2258.007
    
    Mrs. Nalepka. Thank you. Good afternoon, Chairman Souder 
and members of the committee. I am Joyce Nalepka, president of 
Drug Free Kids: America's Challenge. I was also a founder and 
former president of Nancy Regan's National Federation of 
Parents for Drug Free Youth during the Reagan administration. 
On behalf of parents and grandparents across America, I 
appreciate your invitation to testify and your willingness as a 
committee to take on this difficult issue.
    Our most important job is preventing kids from getting 
involved in drugs, and the second most important job is 
exposing the underground drug culture represented by groups 
working to legalize drugs for their own pleasure. These are the 
groups that have passed initiatives in nine States already 
because an unsuspecting, compassionate public wasn't informed 
on the motives behind the legalizers' scam.
    As a 25-year veteran in the parents anti-drug movement, I 
can testify that some of the most dangerous traffickers are 
those trafficking in misinformation. They have been for years 
telling young people marijuana is a harmless giggle and now 
they are attempting to convince a compassionate public that 
marijuana cigarettes or joints are medicine. Legalizers were 
helped substantially, in my opinion, by the government-funded 
Institute of Medicine study.
    I was one of the few who testified against the issue when 
one of the public hearings was held in Washington, DC. I noted 
that the audience was filled with folks that I recognized for 
years as legalizers. Finally, in 1999, Dr. John Benson, one of 
the coprincipal investigators, wrote, ``It is true that a pro-
legalization group, the Marijuana Policy Project, organized the 
attendance of many of the patients.'' It must also be noted 
that Kenneth Shine, IOM president, serves on one of George 
Soros boards or committees.
    High Times, a drug glamorizing magazine, reported in 
September 1993 that the Marijuana Policy Project receives 
funding from George Soros. MPP was the brainchild of Eric 
Sterling, we were told, formerly of the Drug Policy Foundation. 
DPF's idea of drug prevention was to develop a safe crack 
smoking pipe so users could smoke crack without burning their 
lips.
    Representing the concern of parents and grandparents, 
students and teachers, I am here to tell you that people are 
looking to you congressional leaders for help. They want 
results and they really need them now. From the experience of 
the numerous anti-drug parent groups throughout America, we 
have a plan that, if implemented on a fast track basis, could 
reduce student drug use by 50 to 90 percent and also 
significantly reduce school violence by the end of the next 
school term in June 2001 through 2002.
    The key ingredient in this is finding the necessary 
leadership in Congress and the administration to adopt and 
implement the plan. These expectations of early success are 
based upon hard data from previously tried and proven anti-drug 
efforts.
    Our plan involved the following as a package. The 
elimination of any one element could lead to a continued 
failure to protect America's kids from drug dealers and 
traffickers. We need a national anti-drug leadership to be 
established at the highest level of government. Nancy Reagan's 
leadership attracted financial support to the parents' anti-
drug movement so we could hire staff and hold national 
conferences, disseminating valid scientific information to 
drug-besieged parents across America. Our efforts resulted, 
according to NIDA, in a 50 percent drop in child drug use 
during the Reagan-Bush years.
    The recently introduced bill, S. 304, authorizes Federal 
funding specifically for identification and treatment of drug 
involved kids, 18 and younger. If this could be fast tracked to 
early enactment, rescue of drug involved kids could begin at an 
early age. The S. 304 bill needs to be amended to authorize and 
encourage local school districts to fully utilize drug testing 
programs as an effective means of identifying drug using kids 
in need of treatment. Also needed is legislation requesting the 
Supreme Court to expedite appeals from several existing 
conflicting U.S. Appeal Court rulings on student drug testing.
    Money should be redistributed from the current public 
service program to provide funding for anti-drug parents 
organizations. We must expedite the appointment of a new White 
House drug czar with specific instructions to work with parents 
groups. Of critical importance is the reintroduction and 
expedited enactment of Congressman Souder's former bill, H.R. 
4802, or express preemption to block drug traffickers' attempts 
to legalize drugs by tricking a naive public into voting in 
favor of harmful but attractive, sounding State referendum 
initiatives for medical marijuana cigarettes and legalizing 
hemp.
    We understand the Drug Enforcement Administration is eager 
to work with you to expedite the bill's passage. We urge you to 
call them and to enlist the White House. We promise you that we 
will be the wind beneath your wings to get this passed.
    The parents' movement is a potent but underutilized force 
in America today. In less than 2 weeks we organized over 50 
parents anti-drug groups and like-minded individuals to 
voluntarily collaborate on a Friend of the Court brief for 
tomorrow's Supreme Court hearing on whether a smoked marijuana 
joint can be classified as medicine. That absurd proposition 
would never have reached the Supreme Court if it weren't for 
massive pro-drug funding in the absence of parent organizations 
to rebut that silly idea.
    I have in my hand a copy of our amicus brief in that case, 
United States v. Oakland Cannabis Buyers Cooperative. We are 
making an attempt to put a face on the numbers that people tell 
us of kids that are on drugs and we have parents coming in from 
across America bringing pictures of their dead children that we 
believe will put a face on this. After the vigil and the 
Supreme Court hearing, we will hold a strategy meeting from 2 
to 5 p.m., at the nearby Hyatt Regency Hotel to discuss 
effective government actions, as suggested herein, to eliminate 
drugs from America's schools and communities in order to 
lecture safety and peace to the citizens.
    We parents are alive and well and ready to take on the drug 
traffickers, but we need effective legislation to help us. We 
now have new leadership and you have the ability to provide us 
that help by your urgent consideration and adoption of the 
program we have outlined. We have access to technical, legal 
and managerial experts in the anti-drug field and we have a 
long established network of involved anti-drug leadership to 
make the programs work and work quickly. We are willing and 
able to work with your leadership to work out any problems. If 
we move quickly, these measures could be implemented by next 
school term.
    We feel there are absolutely no excuses. There are 16,000 
young people dying every year and if we don't get started soon 
on a major fast track basis, students' drug use and drug 
shootings will continue unabated to the everlasting shame of 
those who failed to recognize this great opportunity to move 
forward. And I also have, which I will leave for the committee, 
a manual that we have put together making the case for Federal 
school drug testing, which has been very, very successful, one 
particularly in Texas where in 2 years not only did they have a 
drug free school but a long list of parents waiting to get 
their kids into the school. And it is said if we don't know 
history we are destined to repeat it.
    Yet as Jill Jones points out in a book, ``Hep Cats, Narcs 
and Pipe Dreams,'' the scientific and medical communities 
generally failed to sound an alarm to the American public about 
cocaine's devastating effect in the early 1900's and the impact 
it could have with its return in the 1970's. We have 
experienced the same problems with getting marijuana research 
disseminated. The only scientist of this ``we love cocaine'' 
era to inveigh vocally and publicly against cocaine and 
marijuana was Dr. Gabriel Nahas, pharmacologist and professor 
of anesthesiology at Columbia University, an outspoken critic 
of those who said marijuana was a harmless giggle. Even then, 
Nahas was attacked constantly. His paper is in the packet of 
information I gave you and just one final comment.
    I have before me what may look strange to some of you. This 
container contains 450 some M&M's, illustrating the number of 
chemicals that are in a marijuana joint or cigarette before it 
is lighted. The other two jars each have 1,000 M&M's in them, 
demonstrating what happens when you light this joint with 450. 
They begin to act synergistically with each other and then you 
have 2,400 and I believe it is some 50 odd chemicals and I 
suspect that none of us would be happy if we walked into our 
doctor's office and said, here, you take these. Yet, that is 
exactly what these kids are smoking.
    The most clear damage from marijuana seems to be from the 
immune system. And NIH has made a statement that, ``People with 
HIV and others whose immune systems are impaired should avoid 
marijuana use.'' I will close with that, and I wish we had 2 
days.
    [The prepared statement of Mrs. Nalepka follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.008
    
    [GRAPHIC] [TIFF OMITTED] T2258.009
    
    [GRAPHIC] [TIFF OMITTED] T2258.010
    
    [GRAPHIC] [TIFF OMITTED] T2258.011
    
    [GRAPHIC] [TIFF OMITTED] T2258.012
    
    [GRAPHIC] [TIFF OMITTED] T2258.013
    
    [GRAPHIC] [TIFF OMITTED] T2258.014
    
    [GRAPHIC] [TIFF OMITTED] T2258.015
    
    [GRAPHIC] [TIFF OMITTED] T2258.016
    
    [GRAPHIC] [TIFF OMITTED] T2258.017
    
    [GRAPHIC] [TIFF OMITTED] T2258.018
    
    [GRAPHIC] [TIFF OMITTED] T2258.019
    
    [GRAPHIC] [TIFF OMITTED] T2258.020
    
    Mr. Souder. Thank you very much. Mr. Kampia.
    Mr. Kampia. Thank you, Mr. Chairman and members of the 
committee. I am going to use the outline of my testimony that 
was submitted as sort of a talking points document.
    The Marijuana Policy Project believes that sick people as 
well as healthy people should not be arrested and put in prison 
for using marijuana. We are the largest membership based 
marijuana policy organization in the country. Most recently we 
have submitted an amicus brief for the U.S. Supreme Court in 
the case that is going to be heard tomorrow, and we are also 
responsible for drafting legislation that is being debated in 
the States to remove criminal penalties for medical marijuana 
use. We were instrumental in helping to pass the law in Hawaii, 
which was signed by the Governor in June 2000, which removes 
criminal penalties for patients who have their doctor's 
approval to use medical marijuana.
    It seems that we are all familiar with what the State 
initiatives do, so I will skip over the part of my testimony 
which explains that the initiatives allow functioning doctors 
to recommend the use of marijuana to patients who have certain 
specified conditions, who are then able to possess a certain 
amount or grow a certain amount of marijuana. They do not allow 
for-profit distribution of marijuana. They do not allow people 
to grow hundreds of marijuana plants and then to claim it is 
for medical use. They do not protect dealers on the streets who 
are selling marijuana to anyone, including patients.
    I would like to spend a minute or two clarifying what the 
issue is before the Supreme Court. The issues in Federal law 
that are already resolved in this area are, first, that it is 
quite clear that patients who are using and growing medical 
marijuana legally under State law are still in fact violating 
Federal law. No one disputes that, and if the DEA and other 
Federal law enforcement officials are upset about that, then 
they still retain the authority to sweep up and down the West 
Coast arresting AIDS and cancer patients if they so desire. 
They have the authority to do that, and if the committee is 
concerned about State medical marijuana laws subverting Federal 
law, I would encourage you to encourage the DEA to arrest a 
large number of cancer and AIDS patients on the West Coast 
under Federal law.
    Another issue that is not debatable is that physicians 
clearly may not prescribe marijuana. That is clearly prohibited 
under Federal law, which then leads to the initiatives to allow 
doctors to recommend medical marijuana. This is protected by 
the first amendment. Doctors who recommend marijuana are 
engaged in free speech, and this was found to be the case in a 
court case that was ruled on last year in Conant v. McCaffrey.
    Now I think the issue before the committee is primarily 
that of preemption, and in fact when proposition 215 passed in 
California in 1996 the Justice Department and other Federal 
officials were pulling out their hair trying to figure out a 
way to subvert the will of the voters, and they came to the 
conclusion they could not challenge the State medical marijuana 
law in court. It stands to reason given the hostility of those 
in Congress and on the Federal level in the Clinton 
administration and now in the Bush administration that if there 
was a way to challenge the State medical marijuana laws by 
using the supremacy clause that they would have already done 
it. It has been 4\1/2\ years now and there is no legal case 
there. And in fact this was found to be the case in a finding 
in Wayne Turner v. D.C. Board of Elections and Ethics. This is 
the court case that required the local D.C. government to 
release the results of the local medical marijuana initiative 
here, and in that court case the Federal judge found that there 
is nothing in the Constitution of the United States that 
prevents States from reducing penalties for medical marijuana 
use.
    So what is the case before the court tomorrow? Quite 
simply, the question is whether you can use a medical necessity 
defense in Federal court to avoid Federal marijuana 
distribution charges. That is all. That is not challenging the 
validity of State law at all.
    With 30 seconds left, I would just like to try to shift 
gears here. I think it would be more helpful if the committee 
would not focus on the State medical marijuana law, which I 
consider good, and instead focus on its own bad Federal 
policies. Under Federal law, seriously ill people are treated 
the same as recreational marijuana abusers. They face up to 1 
year in prison and a $10,000 fine. Under Federal law, cocaine 
and morphine are deemed to have more medical value than 
marijuana. I think that sends a bad message to the children and 
it makes no distinction whatsoever between the medical and 
nonmedical use. I think if Congress wanted to do something 
proactive in this area, it would pass a law saying marijuana 
when used for medical purposes should be treated less severely 
than in those cases when people are using marijuana 
recreationally or otherwise abusing it.
    Thank you very much.
    [The prepared statement of Mr. Kampia follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.021
    
    [GRAPHIC] [TIFF OMITTED] T2258.022
    
    [GRAPHIC] [TIFF OMITTED] T2258.023
    
    Mr. Souder. Thank you. Before we start our questioning we 
have been joined by additional Members. I wanted to see if 
Congressman Weldon had an opening statement and then 
Congressman Barr.
    Mr. Weldon. Thank you, Mr. Chairman. I want to commend you 
for calling this hearing, and I did want to say a few words. 
First of all, let me apologize. I have another hearing going on 
in the Financial Services Committee and I am trying to bounce 
between both locations. I do consider this issue very 
important.
    As many of you know, I have practiced medicine for about 15 
years before I was elected to the U.S. House of 
Representatives, and I had the opportunity to take care of a 
lot of cancer patients. Indeed as well, I also was partners 
with an infectious disease specialist and for many years he and 
I were the only people in a county of 400,000 people seeing 
AIDS patients. So I have a lot of experience taking care of 
cancer patients and AIDS patients. As well, I was in a large 
medical group, we had 35 members total. We had a 500-bed 
hospital, and at that hospital typically, we had half the 
patients in the hospital and I was on call on a regular basis. 
And so I have accumulated a large degree of experience taking 
care of cancer and AIDS patients, and I just want to say that I 
have never seen a case where there was a medical indication for 
the use of marijuana.
    Marijuana is purported to be useful in controlling nausea. 
I will just point out that if you open up the Physicians Desk 
Reference you will see many, many drugs that do not have nearly 
the side effects of marijuana for the control of nausea. 
Marijuana is also purported to have other beneficial properties 
or qualities in terms of enhancing a sense of well-being, and I 
would like to also point out there are many legal drugs that 
are much safer for that purpose. And I have seen two cases 
where people who did not smoke cigarettes develop lung cancer 
who admitted to being chronic marijuana abusers. And so I just 
want to let the record reflect that I don't in my clinical 
experience recall ever seeing an indication, a medical 
indication for marijuana and that the drug, when smoked as 
recommended, probably causes lung cancer.
    So in my opinion, it is virtually lunacy to talk about a 
medical indication for the use of marijuana and that the 
efforts on the part of some people to legalize this drug for 
medication is really just a veiled attempt to legalize another 
substance for abuse. And let me just close, and I thank you, 
Mr. Chairman, for yielding to me by pointing out that every day 
in America there are many people who die from the ravages of 
cigarette smoking and alcohol abuse. And why on Earth would 
this Nation want to unleash another dangerous substance on our 
population. There are thousands and thousands of people who 
will not use marijuana because it's illegal who will start 
using it if it is ever made legal. And to contend that there 
are medical indications for this drug is in my opinion patently 
absurd. Let me finally close by also pointing out that Marinol 
is a substance that you can prescribe. It is 
tetrahydrocannabinol. It is available in pill form. It is 
legal. I can write a prescription for Marinol, if I have that 
rare unusual case. By the way, I never saw it once, but if you 
have a rare unusual case, if you have someone intolerant to 
every single anti-medic drugs in the book, and I have never 
seen it happen, and if you have to resort to this you can 
actually prescribe it in pill form.
    What's really going on is people are trying to legalize the 
smoking of marijuana and they are trying to use cancer victims 
and AIDS victims as their prop to enable them to get it 
through. And in my opinion it is shameful and for that reason 
your hearing is very timely, Mr. Chairman, and I want to thank 
you for your indulgence.
    Again, I want to apologize. I am going to try to come back. 
I am very anxious to hear the second panel's testimony and 
engage in a question and answer time. Thank you, sir.
    Mr. Souder. Thank you. Congressman Barr, do you have an 
opening statement?
    Mr. Barr. I do, and I would like to ask unanimous consent 
that my full statement be included in the record, Mr. Chairman.
    Mr. Souder. So ordered.
    [The prepared statement of Hon. Bob Barr follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.024
    
    [GRAPHIC] [TIFF OMITTED] T2258.025
    
    Mr. Barr. I think that Dr. Weldon hit the nail on the head, 
at least insofar as claiming that marijuana has medicinal value 
and is a medicine. Whenever I write about the topic, I always 
put medicinal use in quotes prefaced by the face, so-called, 
because that's what this is. This is a so-called medicinal use 
but it is really simply an effort by the druggies to legalize 
mind altering drugs. And even though I doubt that we are going 
to hear anything new from drug legalization advocates today, I 
think it is important to hold this hearing for a couple of 
reasons, Mr. Chairman.
    One is the timeliness of it in light of the Oakland-
Cannabis Buyers Corp. case coming up this week in the Supreme 
Court. I think it's important to draw attention to this and get 
the story out. I think it is also important for America to see 
the face of drug legalizers. They have learned a lot over the 
last several years. They don't so much bring people forward 
with glazed eyes and blood shot eyes that look shabby and dress 
poorly. They know that doesn't work, so they send forward 
people with legal degrees that dress very nice, that speak very 
eloquently, that speak very quietly, but their message is the 
same. It is death and destruction.
    I think it is important for the American people to see this 
movement for what it is despite the benign face that they put 
forward. And it is important to remind ourselves, Mr. Chairman, 
that they are having some success. Young people are starting to 
ask the question why shouldn't we be allowed to smoke 
marijuana, after all it is a medicine? Why shouldn't people be 
allowed to smoke marijuana, after all it helps people? It 
doesn't help people. It kills people. It has very serious 
medical effects on the reproductive system, as Dr. Nahas has 
written extensively, it has very deleterious effects on other, 
both psychiatric and physiological functions of the body, such 
as memory loss. It is a mind altering drug, the same as those 
other substances on the Federal controlled substances list.
    So I think it is important to remind people through this 
and other hearings, Mr. Chairman, of what the real problem is, 
to show these people for what they are, and to remind the 
American people not to be taken in by their siren song of so-
called medicinal use, and despite the nice neckties and nice 
dress and eloquent words and soft spoken manner of people that 
their message is still very much the same.
    I appreciate this hearing, Mr. Chairman, and I appreciate 
all of witnesses being here, both those that will tell America 
the truth and those that won't. I think it is important for the 
American people to see the difference. Thank you.
    Mr. Souder. Thank you, and I will start with the first 
round of questioning. Mrs. Sembler or Mrs. Nalepka have made 
allegations and have crusaded for a long time on this issue, 
wherein that the medicinal use of marijuana is actually a 
front. Mr. Kampia, today you said in fact you were focused on 
medicinal use but you had a letter published in the Los Angeles 
Times in 1998, where you said the marijuana prohibition creates 
dangerous criminal markets and takes police resources away from 
violent crime. It is time to stop arresting adults who grow and 
consume their own marijuana at home.
    Now in that statement you didn't limit it to medicinal use 
of marijuana, yet today you only talked about the medicinal 
use. Could you explain the difference?
    Mr. Kampia. Yes, at the outset of my testimony today I also 
said that the Marijuana Policy Project believes that sick 
people as well as healthy people should not be arrested and put 
in prison for using or growing marijuana. So I have been 
consistent in that.
    Mr. Souder. So your consistent position is that people 
shouldn't be arrested at all. And you said in July, you were 
quoted in USA Today on proposition 215 in California, ``it is 
working great. Patients right now can possess and use marijuana 
in the privacy of their homes and don't have to worry about the 
police.'' Can you explain ``working great,'' and once again you 
did not use medicinal. Are you saying there is no enforcement 
of marijuana laws in California by State and local police.
    Mr. Kampia. I think the word ``patients'' was used in the 
quote that you just read.
    Mr. Souder. Yes.
    Mr. Kampia. So I was referring to the fact that proposition 
215 is working well, it is protecting patients from having 
their doors kicked in by local cops.
    Mr. Souder. Do you know of any case where a door was kicked 
in by a local cop who was a cancer patient using marijuana 
previously?
    Mr. Kampia. Sure.
    Mr. Souder. Where the door was kicked in--you are under 
oath.
    Mr. Kampia. Yes.
    Mr. Souder. The door was kicked in by local police because 
they were using marijuana for the cancer?
    Mr. Kampia. I don't know what was in the minds of the 
police when they kicked in the door, but after the door was 
kicked in the police found the person was in fact using 
marijuana for medicinal purposes. I would be happy to provide 
newspaper articles tomorrow if you'd like.
    Mr. Souder. Was this after proposition 215 passed or prior?
    Mr. Kampia. The case I am thinking about occurred in 
Washington State after the initiative passed in Washington 
State.
    Mr. Souder. Also, when you were at Penn State you were 
arrested for growing marijuana plants and you spent 3 months in 
the county prison and were kicked out of school for more than a 
year, which delayed your graduation and engineering science 
degree. Why did you tell this story to the newspaper and are 
you proud of that record? Are you, I mean you don't seem 
ashamed at all by saying that you not only were an advocate of 
marijuana use, you grew the plants and used it yourself?
    Mr. Kampia. I think it is an instance of how our government 
has gone too far. I was a straight A student in physics and 
engineering. I had a full scholarship. The police invaded my 
privacy, took my plants, and put me in prison for 3 months. I 
think it is an example of how marijuana prohibition doesn't 
actually dissuade people from using marijuana.
    Mr. Souder. But you knew it was a violation of law.
    Mr. Kampia. Yes.
    Mr. Souder. And you still went ahead and did that. Why 
would you do that and put your education at risk and your 
health at risk?
    Mr. Kampia. Let's just say it was foolish youthful 
experimentation.
    Mr. Souder. So you currently would not use marijuana?
    Mr. Kampia. I currently do not.
    Mr. Souder. May I ask you, Mrs. Sembler and Mrs. Nalepka, 
clearly as a prime advocate he at least has a very consistent 
position on the use of marijuana generally as well as 
medicinal. Is this the pattern that you have seen in those you 
have battled in the different State referendums? That they say 
it is about medicinal but in fact they have a broader agenda?
    Mrs. Nalepka. We have information that as far as 1979, 
where one of the groups that are their colleagues, the National 
Organization for the Reform of Marijuana Laws, said they would 
try to get marijuana reclassified medically and use the issue 
as a red herring to get back at us like we got at them for 
closing their drug paraphernalia shops. And later on there was 
a continuing message. Particularly, NORML was one of the first 
and one of the most tenacious of the drug legalizing groups, 
and I hold Keith Stroup, who was the founder, to be the father 
of the teenage drug epidemic in this country and responsible 
for I believe tens of thousands of deaths or kids in treatment 
or lost because he continued to make statements telling them--
there was no particular evidence that even those few young 
people who used a great deal of marijuana necessarily hurt 
themselves academically and otherwise. And that was established 
in High Times Magazine, September 1997, that had an estimated 
pass on readership of as many as 30,000 kids. And later on he 
testified before Congress that he wanted to completely open the 
market. No age controls, no street controls. And that next they 
need to decriminalize traffickers because most drug sellers are 
not violent criminals, are nice folks. They shouldn't be 
treated like violent criminals. And my experience over the 
years is that mind destruction is a violent crime. They have 
been very, very out front about wanting to legalize marijuana, 
and there is a whole network of the groups, of whom we have 
videotapes of many of their meetings saying--Dennis Peron, the 
leader in California, for instance, made a comment to me, he 
said, all marijuana use is medical. And chuckled and an 
attorney, one of their colleagues, earlier on said that we have 
found the chink in the armor. We get medical marijuana, we will 
have full legalization, and he is also the same attorney who 
said that to him drugs--all law is drugs and mechanics. This is 
not an exact quote. But he said you kill a cop and I'll defend 
you for free.
    This is the type--we are not talking about the AMA here 
pushing medical marijuana. The Timothy Leary era continues. 
Even though he has been sprinkled into the atmosphere, his 
colleagues continue to push for legalization of these 
disruptions that are causing an incredible amount of damage to 
kids in our country, and it is a mystery to me as the mother of 
two young sons, one just about Rob's age and I have looked at 
his curriculum vitae and saw he was valedictorian of his high 
school and he did very well in college. And I want to ask him 
why? As a mother you want to take them home and say, look, let 
me show you what's wrong here. But we're having a very tough 
time standing up against them, quite frankly, because we are 
doing it mostly on our grocery funds and George Soros, John 
Sperling, Peter Lewis, George Zimmer seem to be pouring endless 
funds in there. When I first discovered that Soros was putting 
money into it I was sure he did not know who he was funding and 
he was speaking at Georgetown and there was an open mic and I 
went to hear him speak, and there were about 450 businessmen 
waiting to hear him, and at the end I took the microphone and 
asked him. I said I know that variety is the spice of life and 
you invest in a lot of things, but did you know these things 
and I itemized, you know, their statement about legalization 
and no age controls and no street controls, and he turned 
rather ashen but it certainly didn't stop him. He continued to 
do that. Now we know that he knows exactly what he's doing 
because he's been told with 400 witnesses.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you very much. First of all, I want to 
say to all of our witnesses I really do appreciate your being 
here and I want to make it very, very clear that I don't 
consider anybody a druggie. This is the Congress of the United 
States of America. And it does concern me when we ask witnesses 
to come, I think, we, and I speak for myself and I hope I speak 
for all of my colleagues, respect everybody that comes here and 
that we assume you come here because you believe in what you 
are talking about and you are not coming here lying to us. You 
are under oath. And I respect each one of you for your 
positions.
    You know, I was just sitting here, I was just thinking 
there is nobody in this room whose area or places that they 
live is more effected by drugs than yours truly. And you know I 
was just wondering, and again I think about it, I looked at 
these States that have passed these initiatives and voters 
aren't stupid. I'm trying to figure out what kind of arguments 
are made to voters who, No. 1, see the effects of drugs every 
single day, every day. They have seen it. They have seen it on 
the 6 o'clock news, they have seen it in the morning, they see 
it in the newspapers. They have heard about shootings that may 
be drug involved. How do you, what kind of arguments are made 
to the public to get them to vote for something like this?
    I mean, you can't convince me that people, I mean, I just 
can't, I'm trying to figure out is it the people are just being 
bombarded with information. And when you think about people and 
their children, people, when you think about your children and 
you think about--and I have been watching a series on 60 
Minutes last week, and one of the interesting things that one 
kid said is that Koppel kept asking him could your parents have 
stopped this. And I was just waiting, you know, anxiously to 
see what the answer would be and just about all of the kids 
said I don't think their parents could have stopped them. As a 
parent, I felt pretty bad about that.
    I am just trying to figure out what was being said to the 
public, and any of you all can answer this question, that 
convinced them. And I am looking at these States. These aren't 
the most liberal States, necessarily, to legalize marijuana. 
I'll start either way. We'll come across.
    Mr. Kampia. I think it's the same way Congress looked at 
cocaine and morphine when Congress said cocaine and morphine 
should be available by prescription in 1970. Those drugs are 
available for prescription even though they never intended for 
those drugs to be wildly available for abuse on the streets. I 
think the voters are at least as smart as Members of Congress 
and the voters have said we understand the medicine and drug of 
abuse and we don't see any reason to get involved in the 
doctor-patient relationship. We think doctors and patients 
should be able to make these decisions, and it will have no 
impact upon drug trafficking in the streets. In fact I will go 
one step farther, by allowing patients to grow their own 
marijuana at home so they don't have to go out on the street 
and buy it, you are actually reducing drug trafficking. So 
those of you who are concerned about that, I say allow 
nonviolent individuals, particularly patients, to grow their 
own for the specific purposes of reducing the purchase of 
marijuana on the streets.
    Mr. Cummings. Yes.
    Mrs. Sembler. I would like to bring to your attention 
though--this is for the State of Florida and, as you know, I'm 
a Floridian. We have a petition that's been going around the 
State now, this is the third time. I won't go into what our 
laws are but this is the last chance they would have to pass 
this. The title of it is of course Sign for Medical Freedom. 
What you hear from people who advocate smoked marijuana, smoked 
marijuana as medicine, has several components to that. First of 
all, the petition itself calls it Sign for Medical Freedom. 
There is no such thing as medical freedom. But the diseases and 
conditions that are outlined are never brought to public 
attention. This is what the public sees, right here. And unless 
you actually request it, you don't see the bottom part and you 
don't read it. But I will read it to you. It says each natural 
person has the right to obtain and use marijuana for medical 
purposes when a licensed physician has certified the following: 
That the use of marijuana is medically appropriate for that 
person in the professional judgment of that physician, and, 
two, that the person's health may benefit from use of marijuana 
in the treatment of cancer. Notice treatment of cancer, HIV, 
AIDS, anorexia, glaucoma, arthritis, chronic pain, spasticity, 
migraine or other specified medical conditions or illnesses.
    I could continue, but I can assure you that there is no 
place in here for a physician who would actually say that this 
person has glaucoma and he should be smoking marijuana in order 
to relieve the pain. They do say that, by the way. But 
incidentally I work with physicians all over the country and I 
am also on the board of the Brain Institute of the University 
of Florida Medical School, and I have been assured by experts 
who have studied this for years and years and people who I 
respect that are not--who are also physicians, glaucoma has no 
pain. So you can sell things if you say it long enough, loud 
enough, if you hide the other parts of it.
    You won't see anything on these ads that show people 
smoking. Now you might see something on an ad for a pill, 
somebody swallowing it, but they never advertise the fact that 
this is smoking, and we all know that we have spent time, 
effort, money, sweat and tears trying to get people to stop 
smoking. Why should we promote smoking? We should not. If there 
is medicinal value to a plant that we can extract, which has 
already been noted by Dr. Weldon, we can also point to 
foxglove, from which we get digitalis, as we have pointed out, 
we can get other medicines from plants such as poppies. There 
is no secret to that. But to promote the smoking of medicine, 
that is a lie. It is not a medicine. And I don't care how you 
put it or how you say it, it is not a medicine. But what it 
does do is it softens the idea of the use of drugs to which I 
have just had a very terrible experience in my own family and I 
have been in this for almost 30 years, and I can tell you that 
young people hear that and what they hear is that if it's a 
medicine it's not so bad. And then they begin to use more.
    So, the responsibility once again as parents, as 
grandparents, as Congressmen, as citizens of this United States 
is to stand up and say what the truth is. This is not the 
truth. What this man is saying is not the truth. This is not 
for people who have cancer. I don't want to go on and on, but I 
will tell you one more little vignette.
    I have questioned people whose parents have died of cancer, 
one gentleman out in California. I asked him before the passage 
of 215 if he was going to vote for it. And he said yes. And I 
said why. And he said because my mother died of cancer, and it 
might have helped her. I said I want to ask you a couple of 
questions. Did she smoke? He said no. I said, was she 
conscious? He said no. I said, well, how are you going to get 
her to smoke marijuana if she had never smoked and she wasn't 
conscious? Did she need it? He says, no, I think I'll vote 
against it.
    So all you need is a grain of truth and that's what we're 
asking you for, a grain of truth. Thank you.
    Mrs. Nalepka. A very similar----
    Mr. Souder. Mrs. Nalepka, we need to keep the questioning 
going. I have been generous with the red light, but I need to 
make sure we stay within range.
    Congressman Barr.
    Mr. Barr. Thank you, Mr. Chairman. Let me be perfectly 
clear, I do appreciate all the witnesses coming here today and 
I will treat all of them with civility. But I don't respect Mr. 
Kampia. I don't agree with him. I have no regard for him 
whatsoever. What he's trying to do needs to be told to the 
American people for what it is, and that means not coming up 
here and saying you are a wonderful person and we disagree with 
you. You are not a wonderful person. You are doing something 
that is absolutely despicable in a way that makes it even more 
despicable because you put a face on it that appears to be very 
different from what it is that you're selling.
    What you're selling to the American people, and 
particularly to young people, that's the real heart of the 
matter here, is a mind altering substance. And one can argue 
over the extent to which marijuana is a mind altering 
substance, but it is a mind altering substance. It alters one's 
mind. It does do permanent damage. There are very, very well-
documented and extensive research studies by very learned 
individuals, much more learned than yourself, and you are a 
learned individual, that established beyond any reasonable 
doubt that there are very serious permanent effects, 
particularly long-term marijuana usage, but even short-term 
marijuana usage. And to say that this is a medicine is just--I 
think it's just beyond the pale.
    But I do admire you all's ability, drug legalizers that is, 
to do so with a straight face. You have become very adept at 
that and that is perhaps why you all have been successful in 
recent years in this score.
    Turning though, Mr. Kampia, to the specific issues that the 
Supreme Court will be taking up this week, I know it would be 
easy to draw analogies to saying that the U.S. Constitution 
should not in the case of the so-called Medical Necessity 
Defense act as a prohibition or what not on the supremacy 
clause; in other words, there should be no prohibition of the 
supremacy clause. I know it would be easy to say, well, what 
about murders and other types of behavior in which you have two 
sovereigns; that is, the Federal Government exercising its 
sovereign power and outlawing certain types of behavior and the 
State doing the same, and the one being--the Federal effort 
being supreme. But where do you draw the line? You obviously 
would like to see the effort in California under the so-called 
medicinal exception be supreme over the Constitution I suppose, 
however you want to put it. But you would have to be consistent 
with that argument. Where would you draw the line? Would it be 
child pornography, be something in which if you have a conflict 
within the two and you have somebody coming in and claiming, 
which I have--as a prosecutor have heard them say it helps them 
psychologically to traffic and use child pornography, is that 
something that would fall within the same category of activity 
here that makes you believe and argue that California ought to 
be able to with impunity vis-a-vis Federal law use mind 
altering drugs?
    Mr. Kampia. You and I talked about this on TV a few months 
ago when this was first announced, and I will say now what I 
said before is that my understanding of the case before the 
court tomorrow is the narrow question of whether patients in 
any State can cite medical necessity in order to avoid Federal 
prosecution for marijuana distribution. It is not really hinged 
upon the text of the California law. This is a kind of claim 
that could have gone into Federal court in Georgia, and the 
question then becomes can you sort of finagle Federal law to 
justify medical necessity exceptions to the marijuana laws. 
There is a lot of people who think the good guys, meaning us, 
are going to lose this case that is before the court because 
Congress has been pretty clear that it wants to allow no 
medical use whatsoever for marijuana. That is a separate issue. 
All of that is a separate issue of whether or not the court 
could overturn proposition 215.
    Let's look at it this way. If the court decides that the 
States are not allowed to reduce the penalties associated with 
medical marijuana use, that is going to open a whole can of 
worms because then what do you do about the other penalties in 
different States that don't match the penalties on the Federal 
level? There are some States that don't give jail time for 
recreational marijuana use. Like in Ohio, you don't go to jail 
if you are caught with a bag of pot in Ohio. So how does that 
jibe with the fact that Federal law prohibits the recreational 
use of marijuana?
    So I think it is 99.9 percent sure that the Supreme Court 
is going to allow States to have their own medical marijuana 
policies even if the majority Members of Congress don't like 
that decision.
    Mr. Barr. Will we have a second round, Mr. Chairman?
    Mr. Souder. Yes.
    Mr. Barr. OK. Thank you.
    Mr. Souder. We have been joined by Congresswoman Davis of 
Virginia. Do you have any questions?
    Mrs. Jo Ann Davis of Virginia. Thank you, Mr. Chairman. I 
apologize for being late. I was at another meeting. I guess I 
am just curious, Mr. Kampia, do you support recreational use of 
marijuana?
    Mr. Kampia. I don't support the use of any drugs. But our 
organization believes that it should not be a criminal offense 
to use marijuana.
    Mrs. Jo Ann Davis of Virginia. Do you believe that 
marijuana may be a gateway to stronger drugs?
    Mr. Kampia. I believe that the laws of our society cause 
marijuana to be a gateway to other drugs. For those who are 
interested in purchasing marijuana, they are oftentimes 
introduced to LSD, cocaine, and other drugs through the 
criminal market. And if we would regulate marijuana like we do 
alcohol, then those who buy marijuana would not be exposed to 
cocaine and LSD. So I think that the very laws of this Congress 
create marijuana as--sort of put marijuana in the position of 
being a gateway drug.
    Mrs. Jo Ann Davis of Virginia. The only statement I will 
make, Mr. Kampia, is that I am the mother of two sons, one who 
is 24. I will tell you that I disagree with you. I think that 
marijuana is the gateway to other drugs, even when it is not 
purchased. Thank you, Mr. Chairman.
    Mr. Souder. I am going to yield to Mr. Cummings next.
    Mr. Cummings. I just wanted to ask the ladies, one of you 
had said that--were talking about the plan that could reduce 
drug usage by 50 to 90 percent. Was it with regard to 
teenagers?
    Ms. Nalepka. Yes, it was.
    Mr. Cummings. Tell me a little bit about that.
    Ms. Nalepka. Junior and senior high school students. We 
were referring to organizing parent groups centered around the 
parents of their own children's friends. And this is what we 
did in the 80's, instructed parents to get to know the parents 
that are the parents of your children's friends. Get together, 
set guidelines for them according to their age group. Make sure 
they have a good time. Chaparone their parties. And go to your 
school and offer your help. Tell them you are not there to 
blame them, but you want to find ways to get drugs out of the 
schools. And what happened then, many of our parents found that 
schools were teaching responsible use messages and the parents 
were able to get those out. And then we discovered drug 
paraphernalia shops and we went after them. And then began 
networking with parents around our own State and, finally, 
around the Nation.
    But the thing currently that we were discussing is the 
potential that we feel universal, nonpunitive drug testing can 
have in schools. And in two situations that I am most familiar 
with, one in Sundown, TX, and one in New Orleans, the New 
Orleans school was a parochial school and they claim that--my 
recollection is that they announced that they were going to do 
drug testing in the schools, announced to all the kids and said 
look, if anyone has a problem now, you come to us. This is not 
going to be a punitive program. We want to help you. The next 
day something like 52 kids came in and asked for help. And at 
the end of 2 years of universal drug testing with parental 
permission, they claim to have a drug-free school.
    And a very similar situation happened in Sundown, TX. The 
principal called the parents and said, the conditions are 
these: you must sign to have this happen. We are not going to 
have the ACLU chasing us all over Texas. It is going to be 
parental permission. And they started testing the kids and the 
result has been after again approximately 2 years they claim to 
have a drug-free school. The ACLU has not been able to get a 
single person to complain. And finally there is, we are told, a 
waiting list for parents who want to get their kids in those 
schools. And from my own parental experience, I think that once 
those kids know that they are going to be tested, they are 
looking to us as adults to hold them accountable and help them.
    Most kids who get into drugs I'm sure wish there were some 
adults there strong enough to stop everyone from using them 
rather than allowing them to be at risk.
    Mr. Cummings. The second school, was that a public school?
    Ms. Nalepka. The Texas school was a public school, yes, 
sir.
    Mr. Cummings. So they just did it in one of the public 
schools? Is that it?
    Ms. Nalepka. In that particular case, but there are about 
500 schools nationwide out of, I think, 15,000 schools. There 
are 500 schools now using some form of drug testing.
    Mr. Cummings. Did you have something to say?
    Ms. Sembler. Yes, I have in my possession a fax, or e-mail 
that was sent--as far as I know, it was sent to every single 
legislator in the State of Florida. I was told that it was also 
sent to every legislator in the entire United States, State 
legislators. I don't know that that is true, but I can tell you 
this was sent by the Marijuana Policy Project, signed by Mr. 
David Nolan in November 1999 to every single legislator in my 
State.
    Fortunately, one of them works for me on his off-time and 
the purpose of this--which I did not include in my documents, 
supporting documents, but will be glad to give you a copy of 
it--is asking that you write a letter to then the Secretary of 
Health and Human Services, Donna Shalala. Included in that 
was--there were two things that they were emphasizing. One of 
them, the second one says, and I would read it to you: There 
should be no prohibition on single-patient clinical trials. 
That's just the opening statement.
    What they're trying to do is they're trying to get Members 
of Congress to sign it. A few of them did. Here's the list of 
them that did. And that should be what we consider 
``research.'' In other words----
    Mr. Cummings. Let me--I just want to get to Mr. Kampia 
before my time runs out, if you don't mind. Your movement has 
been basically accused of trying to--it is a farce--saying that 
it is a false movement. That you are really not--this is not 
about medicine, it is about legalizing drugs. Could you answer 
that for me? Mrs. Sembler, I might have the chance to ask you a 
question. Sorry.
    Ms. Sembler. That's perfectly all right.
    Mr. Kampia. That's a good question, because that is sort of 
the most often used accusation these days, because our 
opponents know they have totally lost the medical marijuana 
debate. They know that we're going to be passing initiatives in 
any States that we choose to, and that we are going to continue 
to work with legislatures to remove criminal penalties. So now 
they are trying to scare people by saying well, really it is 
not just about medical marijuana, it is about this broader 
agenda.
    And in fact that is not the case. We're always quite honest 
about what our agenda is. We don't want to see people go to 
jail for marijuana. And if we can keep sick people out of jail 
in the short run, then, by God, we're going to do it. Because 
right now--I will be cordial with Congressman Barr, but I must 
say I don't respect him either. Because he is supportive of a 
policy that criminalizes seriously ill people who have their 
doctors's approval to use what is a legitimate medicine. That 
to me is way beyond the bounds of what the Federal Government 
should be doing. This should be a decision that is made between 
doctors and patients, and jail should not be the solution to 
the medical problems that an AIDS patient or a cancer patient 
is undergoing.
    In sum, there is no master plan here. There is no disguised 
agenda. We're always honest about our goal, which is to keep as 
many people out of jail as possible. And if this country is 
only able, only ready to keep cancer parents and AIDS patients 
and MS patients out of jail that use medical marijuana with 
their doctors's approval, then we are going to do our best to 
see that that happens.
    Mr. Souder. Before yielding to Mr. Barr, I want to make a 
brief statement, if you will put the clock on me too. Because 
these hearings challenge the nature of civility when they are 
hearings where we have disagreements. Because I deeply believe 
that advocacy from your group has put my kids at risk, has 
resulted in additional deaths in my community.
    And I believe in having a fair hearing and having the 
debate, but when somebody protects and provides a shield for 
things that are so damaging to our families and children, it is 
hard for us not have to strong statements about each other. I 
understand the argument that you are making about us locking up 
criminals, because--although apparently, it is based on one 
case that you had in the media where you weren't sure why they 
went in the House and you weren't sure of exactly the date, you 
did not name a bunch of cases relating to going in and getting 
cancer patients.
    There are procedures where you can go to HHS--and we're 
going to have far more experienced people than you on the next 
panel to answer the questions on the criminal questions and the 
medical questions that we will pursue this question. But you 
can get waivers and you have not anywhere in your testimony, or 
for that matter, in most of the documents, your organization 
made the exclusive case of any medicinal qualities of marijuana 
that are not elsewhere. The only question we have really 
debated--and I have debated on this on television over the 
years as well with different advocates and different cancer 
patients--is whether or not it alleviates vomiting, and whether 
Marinol works as well with that.
    And as that has advanced, we still have the problem--in 
fact, in California, you have a tension in law enforcement. You 
cannot come in, because this is an official place, an official 
cannabis center raising marijuana for so-called medicinal 
purposes where you have all sorts of clear evidences in the 
State of going around and hiding behind; where you have 
referendums that are predominantly backed by people with huge 
amounts of money that have a far broader agenda which speaks 
for itself. In other words, it isn't a matter of you just 
saying I am concerned about cancer patients. It is that you are 
concerned about the broader marijuana issue. I am not saying 
you aren't concerned about the cancer patients, but I am saying 
they are a convenient shield with which to argue a broader 
case.
    And so some of us, while it may not sound courteous, 
because you are an articulate advocate for an evil position in 
my position. And I understand the argument you are making, but 
I have kids dying. It is ridiculous to say that the only reason 
people move to marijuana and other things is who they are 
exposed to. It may exaggerate the problem. In other words, some 
of those people who move to harder drugs might not have if it 
had been legal. But it is not true in the Netherlands, in 
Vancouver, in Alaska, in other places where they attempted the 
legalization that they did not have an even greater move to 
harder drugs.
    We debate that statistic all the time too, but in fact, we 
are seeing, for example, our methamphetamine problem and the 
ecstasy drugs coming from the very countries that supposedly 
were eliminating the problem by legalizing.
    We are going to continue to have deep disagreements. It is 
important to have you here today to have the debate. At the 
same time, we are trying to be civil and at the same time, I 
think the record--I want the record to show that I have a deep, 
deep offense caused by the type of arguments you have made on 
television and how you are attacking my own family and other 
families in my community because of the advocacy of your 
position. If you would like to make a brief comment in my 
remaining minute and a half here.
    Mr. Kampia. Two comments. The first is that the policies of 
this Nation are responsible for arresting 700,000 marijuana 
users a year.
    Mr. Souder. The actions of the individuals.
    Mr. Kampia. Say again?
    Mr. Souder. The actions of the individuals are responsible. 
We are legislators who respond to voters. If individuals get 
arrested, it is not our responsibility. They violated the laws 
of the land. That is like saying people who are locked up on 
pornography are somehow innocent and we just locked them up.
    Mr. Kampia. OK. The laws of this land have defined certain 
behaviors as such that 700,000 marijuana users get arrested 
every year.
    Thousands of those--of course, there is no hard numbers on 
this but I think most of us who have worked in this field for a 
few decades understand that at least 1 percent of marijuana 
users actually use for medicinal purposes. I don't want to 
debate that point. It is just sort of a feeling that I have----
    Mr. Souder. That is not cancer. That is all medicinal 
purposes; right?
    Mr. Kampia. Right. At least 1 percent. Let's just say 
conservatively----
    Mr. Souder. That is arthritis and other things?
    Mr. Kampia. Possibly rheumatoid arthritis, but I'm talking 
about MS, epilepsy, what we call legitimate conditions. If you 
say that 1 percent of these conditions, 1 percent of those who 
are arrested are arrested for medical use, that is still 7,000 
a year and those numbers are increasing. So I did not mean to 
say that because I knew of one patient in Seattle, that that 
man was the only person in the entire country who had ever been 
arrested for medical marijuana. That would be an absurd 
statement. I could open up my files to you and show you example 
after example where patients with their doctors's approval have 
actually been arrested for medical marijuana use.
    Second of all, I would like to respond just briefly to the 
other point.
    Mr. Souder. But that was a fair analysis, because if I 
mischaracterized your earlier position, I apologize.
    Mr. Kampia. That's fine. And the second is that there is no 
process in HHS that allows patients to go and be able to get 
permission to use medical marijuana. If I was hearing you 
correctly, you might have been alluding to the program that was 
opened up in 1978 and which was closed in 1992, which currently 
allowed eight patients in the country--eight, to legally use 
medical marijuana where they are smoking 300 marijuana 
cigarettes a month each.
    That program has not been opened for the past decade. So 
there is no witness here who will tell you today that it is 
possible to get some sort of Federal waiver. That Federal 
waiver is impossible. And, in fact, if you are interested in 
creating a Federal waiver system, I would be able and happy to 
work with you to pop open that program so that the most ill of 
the ill could maybe squeak in and get some sort of Federal 
shipment of medical marijuana.
    Mr. Souder. I'm sure that over time, we are going to be 
looking at ways to deal with the most ill of the ill. Not 
necessarily, however, through marijuana, but through the 
content, the substance, Marinol. The substance inside the 
marijuana. We certainly need to look at ways to alleviate the 
suffering. We may still have a problem with the marijuana.
    Mr. Barr, do you want to go next in the questions?
    Mr. Barr. Thank you. Over the last couple of years, we've 
had an issue that comes up every time with the District of 
Columbia Appropriations bill. And my opposition to efforts in 
the District of Columbia to move in the direction of so-called 
medicinal use sometimes are mischaracterized as an effort to do 
the same with the States, and that is not my goal or intention.
    This is an issue that each State has to address by itself. 
The District of Columbia, as I know you are aware, is 
different. Congress does have a direct constitutional, very 
explicit responsibility and authority over the District of 
Columbia. Therefore we have jurisdiction.
    It's not my goal to tell the voters in California or New 
Mexico or any other State what to do. I do think it is a very 
important issue that the citizens of each State have to decide. 
But that being said, I am still a little bit curious as to how 
you can almost sort of cavalierly get around the supremacy 
clause of the Constitution. If you accept the fact, which is 
one of the basic precepts of our Federal system of government, 
that you cannot have two sovereigns with an interest in certain 
behavior, have different laws, how can you really maintain that 
you have respect for our Federal system of government if you 
say that in any one, and if you say in any one, then you have 
to open the door to all sorts of other instance, a particular 
State cannot trump the supremacy clause?
    And again I go back to--granted it is a hypothetical, but I 
think it is one that ought to be addressed, and I pose it to 
you again--if you have individuals come in and tell the court 
and convince a court in, say, California that exposing 
themselves, being able to use child pornography has a 
therapeutic effect on them, and you find some doctors that 
substantiate that, why would not the same logic prevail? Why 
should not that also provide a medical necessity for the people 
in California who might, in their so-called wisdom, decide that 
they want to make a decision to allow pornography for--child 
pornography for medical purposes? I mean, to be consistent 
wouldn't you have to say, well, yes they should do that? They 
should be able to?
    Mr. Kampia. I guess, first I'd just like to read something 
from the court decision that overturned your amendment that 
tried to prevent the D.C. government from counting the votes of 
our medical marijuana initiative. The quote is, this is from 
the judge: Whatever else initiative 59 purports to do, it 
proposes making local penalties for drug possession narrower 
than the comparable Federal ones. Nothing in the Constitution 
prohibits such an action.
    So, don't take my word for it, take the Federal judge's 
word for it. There is nothing in the Constitution that prevents 
States from having, or even the District of Columbia from 
having, penalties on the marijuana or other drugs that are 
lower than on the Federal level. But as a former prosecutor, 
you know that the penalties in Georgia on a State level don't 
match the penalties for drugs in the U.S. Code. There are 
disparities all the time, drug to drug. So this is just yet one 
more example of how there is a disparity in penalty.
    The penalty in California for possession of medical 
marijuana is now zero. The penalty in California for the 
possession of marijuana for recreational use is----
    Mr. Barr. I am not talking about a disparity in sentencing. 
That is another issue. We are talking here about carving out a 
trump card. In this case, medical necessity. Would not your 
position have to be, in order to be consistent and credible, in 
answer to my hypothetical that, yes, the medical necessity 
argument should be allowed in that hypothetical to allow the 
people of California who have passed a referendum or whatever 
to say that we think that people that benefit psychologically 
from exposing themselves to child pornography ought to be able 
to do so, and the Federal Government should not be able to 
prosecute them?
    Mr. Kampia. Let's be clear here. My understanding--and tell 
me if this is not your understanding--is that this medical 
necessity argument that is currently pending before the U.S. 
Supreme Court is predicated upon common law. It is not 
predicated upon proposition 215. It is a common law question--
--
    Mr. Barr. It really doesn't matter what it is predicated 
on. What I am talking about is the end result of it, and 
whether or not we are going to have a supremacy clause or not. 
It doesn't matter what you base the medical necessity on. Let's 
say that, however, it is based that the same situation is 
presented to the court in the hypothetical. But rather than 
marijuana being used for medical so-called medical necessity, 
it is child pornography. Wouldn't the same argument that you 
posit have to prevail in that hypothetical also?
    Mr. Kampia. I don't know. It is getting too hypothetical 
for me. Maybe I will have a better answer for you after I hear 
the court argue this tomorrow. I just don't know. I mean, quite 
frankly, I find the argument on just the medical necessity of 
marijuana before the court to be perplexing, because of the 
fact, as I said, Congress has been pretty clear on not wanting 
to allow any medical use of marijuana under any conditions. To 
reach into common law or whatever to say that there is some 
medical necessity for marijuana distribution under Federal law 
is to me, it sort of requires a lot of thinking to see how that 
could be possible. So that is as qualified of an answer that I 
can give you at this point. I'm sorry that I can't give you 
more.
    Mr. Barr. I wasn't quite sure earlier, did you say that you 
thought the Supreme Court would rule to uphold the Ninth 
Circuit or to overturn it?
    Mr. Kampia. I guess I'm not trying to make a prediction on 
what the court would do----
    Mr. Barr. I thought you had earlier.
    Mr. Kampia [continuing]. I could see how there could be a 
reasonable argument to be made that the Ninth Circuit decision 
would be overturned because Congress has been clear on the 
question of whether or not marijuana has medical value. I am 
also more sure that the court is not going to overturn State 
medical marijuana initiatives in a blanket way. That is not 
even before the court, and I can't imagine that the court 
would----
    Mr. Barr. In other words, what they would probably wind up 
doing is, on narrow grounds, overturning or remanding the case?
    Mr. Kampia. Yes. In terms of what could be argued in 
Federal court, yes.
    Mr. Barr. All right. Thank you.
    Mr. Souder. We have been joined by Congressman Gilman of 
New York, vice chairman of the committee, who has an opening 
statement.
    Mr. Gilman. Thank you, Mr. Chairman. And I regret I was 
delayed and I am being called now to another meeting. I do want 
to thank you for holding today's hearing on medical marijuana, 
Federal drug laws, and the Constitution supremacy clause. I 
know that tomorrow there is going to be a hearing before the 
Supreme Court and hopefully we will get some good advice out of 
that opinion.
    I'd like to thank our witnesses who have agreed to appear 
before us today to offer their insight on these important 
issues. The last 5 years have seen a number of initiatives in 
several States to relax or overturn restrictions on the 
possession on the sale and use of marijuana. And since 1996, 
eight States and the District of Columbia have enacted 
primarily through voter initiatives provisions that permit 
under State law the use of marijuana for medicinal purposes. 
The general looseness of such provisions however has resulted 
in de facto decriminalization of marijuana use in those States.
    These new State provisions appear to run counter to Federal 
law, which classifies marijuana as a scheduled controlled 
substance. In essence, Congress has explicitly stated in 
statute that there is no accepted medicinal use for marijuana 
and has criminalized its possession and use.
    Many of us who have been active on the drug issue for a 
number of years here that these recent voter initiatives were 
designed to provide a back-door method to legalize marijuana 
usage. The broad language in a number of those provisions, 
particularly California's, underscores that fear. Moreover the 
media bears some responsibility in shaping this debate. By and 
large, a majority of news reports on medicinal marijuana have 
focused on the supposed benefits of the drug and the compassion 
in permitting the terminally ill to smoke it, rather than on 
the dangers of marijuana use or the fact that the scientific 
evidence shows that the beneficial components can be provided 
synthetically independent of marijuana. And I have read 
recently that there was competent medical information that 
there is a good synthetic use of the pain killer.
    It is my view and many on our committee that Federal law 
preempts local law on this issue by virtue of the supremacy 
clause of the Constitution. The Supreme Court is due to hear 
those arguments, as I noted, tomorrow, and I am confident the 
court will reach an appropriate decision in due course and lay 
this matter to rest. Marijuana is a gateway drug that is 
cheaper, more readily available, and stronger than ever before. 
The sooner we end this latest attempt to legalization, the 
better.
    Thank you, Mr. Chairman I regret that I'm being called to 
another meeting.
    Mr. Souder. Thank you, Congressman Gilman. Congresswoman 
Davis, do you have any further questions?
    Mrs. Jo Ann Davis of Virginia. Yes, I do, of Mr. Kampia. I 
believe I heard you state that you think medical marijuana 
should be used for cancer and AIDS. Yet I heard Mrs. Sembler 
say in the petition that she mentioned anorexia. And I heard 
you say that in these eight cases, they were using 300 a month, 
which is 10 a day. Anorexia in itself is a sickness which you 
can be cured of, I believe. I am not a doctor. I am not sure. 
But what happens when you get these people hooked on marijuana? 
What is your answer to that? You put them on marijuana for 
medicinal purposes and then you have another problem. How do 
you respond to that?
    Mr. Kampia. I'm not familiar with that particular petition, 
but to answer your question directly, it ultimately should be 
left up to the doctor and the patient. Doctors prescribe drugs 
every day that are far more addictive and give the patient a 
far easier chance of overdosing than marijuana. I am hoping 
that Congressman Weldon could verify what I just said.
    There has never been an overdose death from marijuana in 
the history of our country. There are legal medicines that are 
prescribed every day by doctors where patients have a very real 
chance of overdosing or becoming physically addictive. What 
we're saying is treat marijuana like any other medicine. Allow 
doctors and patients to make the determination as to whether or 
not it should be used. And yes, marijuana isn't free or devoid 
of negative side effects, but the Institute of Medicine found, 
and you will hear more about it in the next panel, that the 
negative health effects of marijuana are certainly within the 
realm of reason, given the drugs that are already available by 
prescription in our society.
    Mrs. Jo Ann Davis of Virginia. I apologize in being late in 
hearing your testimony, but these other drugs you are talking 
about that the doctors prescribe, they do just that. They 
prescribe and tell you how much of a dosage you can take and 
they wean you off. Maybe I'm misunderstanding it, but on 
medical marijuana, it is not necessarily prescribed but 
recommended. And you can grow it in your own backyard, so the 
dosage is not controlled by the doctor. It is controlled by 
you. And the doctor doesn't wean you off, you wean yourself off 
if you can. Am I correct in that?
    Mr. Kampia. The State laws in most cases specify an upper 
quantity limit that you are allowed to possess. Then you use 
whatever you need to use in order to treat your condition, 
similar to a doctor prescribing you a big bottle of pills. If 
you wanted to you could eat all the pills in 1 day. But if you 
are smart and you want to treat your condition, you would take 
half a pill a day or one pill a day.
    Mrs. Jo Ann Davis of Virginia. Who controls the amount that 
you can grow?
    Mr. Kampia. The only way that patients can get access to a 
safe supply of marijuana is to grow their own. So, that's the 
best that we can do. If you are not happy with that scenario 
and you want to work with us----
    Mrs. Jo Ann Davis of Virginia. Don't want to work with you. 
Don't misunderstand me.
    Mr. Kampia. You don't want to work with us. I don't know if 
it is protocol to ask a question. Maybe I'll rephrase it as a 
statement.
    Mrs. Jo Ann Davis of Virginia. Fine by me.
    Mr. Souder. It is not protocol, but if you would like to 
put a general comment in the record.
    Mr. Kampia. I think one thing that the committee might be 
interested in knowing is that right now it is more difficult to 
do clinical trials on the medical uses of marijuana than any 
other drug in our society. And I have always been working under 
the assumption that Congress intended for marijuana to be 
treated like any other potential medicine. Do the clinical 
trials. If the FDA buys it, sure. Approve it. But let's not 
have these voter initiatives deciding what is medicine.
    If that is really where Congress is on this issue and you 
want to see clinical trials move forward, I would point out 
that the Clinton administration released guidelines in 1999 
which make it much more difficult to do research on marijuana. 
So if you don't want to work with me, perhaps work among 
yourselves to try to ask the Bush administration to make those 
guidelines different so that legitimate researchers who have 
FDA approval can actually get a quantity of marijuana to study 
in a clinical trial and not have it be any more difficult than 
studying any other potential medicines in our society.
    Mrs. Jo Ann Davis of Virginia. I think the scary part is 
watching our children study it.
    Mr. Souder. Thank you. I thank the first panel for coming. 
I know that many of you travelled from a long distance. We have 
additional written questions that we may ask each of you for 
additional answers. Once again, I thank each you for coming.
    I would just like to say for the record that as a person 
who has opposed some of those research studies, I do not favor 
looking at illegal narcotics for the medicinal value. I am 
encouraged to find alternatives to illegal narcotics to address 
the problem.
    If the next panel could come forward.
    We have distinguished witnesses with us on our second panel 
and I very much appreciate all of you joining us today and we 
look forward to your testimony as well.
    From the administration we will hear from Laura Nagel, who 
is the Deputy Assistant Administrator for diversion control at 
the Drug Enforcement Agency. We're also joined by two of our 
distinguished former colleagues, Bill McCollum of Florida and 
Dan Lungren of California who has not been invited just because 
he is a Notre Dame grad, but it is an extra bonus that we get 
today. And also testifying will be Dr. Janet Joy from the 
Institute of Medicine from the National Academy of Sciences.
    Again, as an oversight committee, it is our standard 
practice to ask all of our witnesses to testify under oath. If 
the witnesses will rise--and Congressman Lungren, if you want 
to just sit there and hold your hand up, that is just fine. 
Raise your right hands and I will administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have all 
answered in the affirmative.
    We will now recognize the witnesses for their opening 
statements. Again, we ask to you summarize in the 5 minutes and 
include any fuller statements you may wish to make in the 
record.
    Ms. Nagel, to you. Do you have an opening statement?

  STATEMENTS OF LAURA NAGEL, DEPUTY ASSISTANT ADMINISTRATOR, 
   DIVERSION CONTROL, DRUG ENFORCEMENT ADMINISTRATION; BILL 
 MCCOLLUM, FORMER CHAIRMAN, U.S. HOUSE SUBCOMMITTEE ON CRIME; 
  DAN LUNGREN, FORMER CALIFORNIA STATE ATTORNEY GENERAL; AND 
JANET JOY, SENIOR PROGRAM OFFICER, DIVISION OF NEUROSCIENCE AND 
            BEHAVIORAL HEALTH, INSTITUTE OF MEDICINE

    Ms. Nagel. Thank you, Chairman Souder and members of the 
subcommittee. Good afternoon and thank you for the opportunity 
to address this subcommittee on the effects certain State laws 
have had on the enforcement of Federal narcotic laws.
    Mr. Chairman, on behalf of Administrator Marshall, I would 
like to thank you and the subcommittee for the unwavering 
support you have given to the Drug Enforcement Administration 
and drug law enforcement in general.
    Let me begin with a discussion of the Controlled Substance 
Act and the scheduling process. The CSA was passed to minimize 
the quantity of abusable substances available while providing 
for legitimate medical, scientific, and industrial needs for 
those substances in the United States. The CSA places 
legitimate and illicit substances with a substantial potential 
for abuse into one of five schedules. This placement is based 
on the substance's accepted medical use, safety, potential for 
abuse and/or dependence liability.
    Schedule 1 is the most restrictive and schedule 5 is the 
least restrictive schedule. The act also provides a mechanism 
for substances to be controlled, added to a schedule, 
decontrolled, or removed from a schedule and rescheduled or 
transferred from one schedule to another.
    In 1995, DEA received a petition to transfer marijuana from 
schedule 1 control. This petition was based on the assertion 
that marijuana has lower abuse potential than other substances 
in schedule 1. The accepted medical use issue was not addressed 
in the petition. Following the administrative scheduling 
process, exhaustive reviews, and evaluations of the scientific 
and medical literature and other data were conducted 
independently by the Department, Health and Human Services, and 
DEA. On March 20, 2001, DEA denied the petitioner's request to 
reschedule marijuana on both legal and scientific grounds.
    I would like now to address the impact State laws have had 
on Federal law enforcement. These State laws purport to 
legalize marijuana for medical use. These so-called medical 
marijuana laws work as follows: If a doctor recommends, no 
prescription is required, that a patient use marijuana for any 
ailment, then it is legal for the patient to grow and use 
marijuana. However, ``medical marijuana'' is a misnomer since 
marijuana is in fact a schedule 1 drug.
    The situation has been viewed as a green light for many 
marijuana growers and distributors who recognize that State and 
local officials are looking the other way. State judges have 
ordered law enforcement officials to return marijuana seized 
from criminal defendants who claim to be handling the drug for 
medical reasons. Even when local police have made arrests and 
seizures, there have been numerous instances where district 
attorneys have been unwilling to prosecute because the 
defendants complied with the spirit of the State law. In 
essence, allowing traffickers to carry on with impunity in this 
manner undercuts the enforcement of the CSA and allows an 
unproven and potentially dangerous drug to be sold to the 
public as medicine.
    Two pending lawsuits have developed from law enforcement 
efforts to keep this situation in check. In United States v. 
Oakland Cannabis Buyers Cooperative, the United States sought 
an injunction ordering this cannabis club to stop growing and 
distributing marijuana in violation of Federal law. The club 
claimed a medical necessity defense. The U.S. Supreme Court 
will hear argument on this case tomorrow.
    In Conant v. ONDCP, a group of Californians sued the 
government claiming that doctors have a free speech right to 
recommend that their patients use marijuana in violation of 
Federal law. The Federal District Court agreed and issued an 
injunction which prohibits DEA from investigating doctors who 
recommend marijuana, or from revoking their DEA registrations.
    Last, I would like to point out that the United States is a 
party to several international treaties to control 
international and domestic traffic in controlled substances. 
Congress and the CSA expressly recognize these treaties. Most 
of the provisions of the CSA must be enforced in order for the 
United States to meet its obligation under these treaties. 
There is no doubt that proposition 215 and similar State 
initiatives provide an obstacle to the United States meeting 
its obligations under these treaties. In addition, these State 
marijuana initiatives to remain in force potentially undermines 
diplomatic efforts by other countries, like Mexico and 
Colombia, to enact and vigorously enforce their drug laws.
    In conclusion, I would like to thank the subcommittee for 
the opportunity to comment on this highly controversial but 
important topic and look forward to answering questions.
    [The prepared statement of Ms. Nagel follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.026
    
    [GRAPHIC] [TIFF OMITTED] T2258.027
    
    [GRAPHIC] [TIFF OMITTED] T2258.028
    
    [GRAPHIC] [TIFF OMITTED] T2258.029
    
    [GRAPHIC] [TIFF OMITTED] T2258.030
    
    [GRAPHIC] [TIFF OMITTED] T2258.031
    
    [GRAPHIC] [TIFF OMITTED] T2258.032
    
    [GRAPHIC] [TIFF OMITTED] T2258.033
    
    Mr. Souder. Thank you, and I again want to welcome our 
former colleague, Congressman McCollum, who was a leader in the 
Crime Subcommittee and a leader in the drug task force. We miss 
you very much. You were a very articulate spokesman in the 
antidrug effort. Hopefully, you can continue to stay involved 
in this administration.
    Mr. McCollum. Thank you, very much, Mr. Chairman for 
letting us come and talk about this subject.
    Mr. Chairman, marijuana is not a medicine, it is an illegal 
drug. Smoked marijuana is a highly dangerous narcotic. In 
addition to its addictive qualities, it is known to cause 
cancer and harm the body's immune system. The American Medical 
Association and many other medical groups oppose the use of 
smoked marijuana for medicinal purposes, citing the fact that 
its addictive qualities and health hazards far outweigh any 
medical value. The AMA points out that what medicinal value 
there is in a marijuana plant has been approved by the Food and 
Drug Administration and been available in prescription pill 
form for a long time.
    Nonetheless, the State initiative movement to ``legalize'' 
smoked marijuana for medicinal purposes has resulted in eight 
States legalizing the possession of certain amounts of 
marijuana for so-called medicinal purposes.
    As one might expect, prosecution of trafficking or 
possession of marijuana in these States under State law has 
become much more difficult, and where there is a recommendation 
from a doctor, virtually nonexistent. In turn, this has made 
the job of Federal law enforcement, especially that of the Drug 
Enforcement Administration, much more difficult. The Controlled 
Substances Act is a Federal law that prohibits trafficking in 
marijuana anywhere in the United States. Trafficking in 
marijuana recommended for medicinal purposes in the eight 
States that have passed marijuana initiatives is still a crime 
under the Controlled Substances Act. DEA is rightfully 
concerned that the absence of any prosecution for these 
activities in the given States will send a message not only in 
those States, but throughout the country and the world that 
undermines the moral foundation for controlling trafficking in 
marijuana generally and undermines the deterrent effect of the 
Controlled Substances Act.
    In the case being heard tomorrow in the Supreme Court, the 
Ninth Circuit Court of Appeals ruling effectively nullifies 
Federal law in medical marijuana cases. This being challenged 
there. Technically, it involves, as you have heard other 
witnesses say, a narrow matter of the government's burden of 
proof in seeking injunctive relief under the Controlled 
Substances Act, but has a broad implication for Federal 
prosecutions as well.
    Congress, in making marijuana a schedule 1 drug and 
prohibiting its sale, distribution, and possession under the 
Federal Controlled Substances Act determined by that act, by 
passing that law and making that schedule, that it had--that 
marijuana had no medical utility. In addition, the Food and 
Drug Administration has never approved it as a medication and 
no drug can be prescribed without approval.
    The supremacy clause of the United States Constitution 
nullifies any State act to contradict these Federal laws. 
Although one can never be certain of the constitutionality of a 
law under challenge until the Supreme Court rules, I believe in 
all likelihood that the results of the court ruling tomorrow 
will be injunctive relief and the prosecution of marijuana 
traffickers will prevail, regardless of the protections of 
State initiatives in question. And I also believe that the 
medical necessity argument will be thrown out.
    The more pertinent question then is whether and under what 
conditions Federal prosecution should be undertaken. In my 
view, Federal prosecution should be undertaken only in the 
context of a new broader policy initiative by the Bush 
administration to educate the American public on the dangers of 
smoked marijuana and the dangers of initiatives such as 
proposition 215. Until such a policy and plan of action to go 
with it are developed and adopted, confrontational Federal 
prosecutions of marijuana trafficking protected under State 
laws are likely to engender more harm than good.
    It is obvious from the fact that these initiatives have 
passed in the affected States that those proposing them have 
been successful in persuading the public of the alleged benign 
nature of these inititatives. Many, if not most of the 
residents of these States, seem to have no comprehension of the 
true dangers of smoked marijuana. Neither do they seem to 
appreciate that the effect of how these initiatives have been 
drafted is to undermine efforts to control marijuana 
trafficking in the affected States and elsewhere. Federal 
prosecution of these trafficking crimes, given the current 
climate of a poorly informed public, could well cause a 
political backlash.
    We need the concerned mothers and fathers of America to 
rise up in their communities all across this country and 
educate their friends and neighbors and the public opinion 
makers on the dangers of smoked marijuana, the importance to 
our children of not legalizing marijuana, and the perils of the 
course these initiatives are taking us on. The President and 
the Office of National Drug Control Policy need to develop and 
implement a plan to educate, motivate and organize parents 
across the Nation to bring about a state of public opinion that 
will sustain a policy in opposition to medical marijuana 
initiatives. A policy of enforcement of Federal law against all 
trafficking in marijuana, regardless of its intended use, and 
the policy that discourages rather than encourages teen use of 
marijuana and other narcotics.
    As a part of this effort, at some point enforcement of 
Federal criminal laws against marijuana traffickers in the 
medical marijuana States would be appropriate. The promoters of 
medical marijuana and the legalization of marijuana must be 
confronted. Appeasement will only make them more aggressive and 
more successful. But again, such prosecution should only be 
undertaken in the context of a larger national policy.
    Just last week, two teenagers appearing before a Senate 
committee hearing on ecstasy told the Senators that ecstasy was 
not the first drug they used, marijuana was. Not only is 
marijuana dangerous in its own right; it is the gateway drug to 
cocaine, heroin, ecstacy, methamphetamines and many more.
    Any message that says to our children that it is OK or 
acceptable to smoke marijuana is dangerous. And that is just a 
fact. The message being sent by medical marijuana initiatives 
that have been passed in California and other States is 
precisely such a dangerous message. We must find a way to 
counter it and rally public opinion to do so. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. McCollum follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.034
    
    [GRAPHIC] [TIFF OMITTED] T2258.035
    
    [GRAPHIC] [TIFF OMITTED] T2258.036
    
    Mr. Souder. Thank you again, Mr. McCollum. And I want to 
say that one of the more moving testimonies that we had in this 
subcommittee was in a hearing that we had done jointly with you 
in Orlando on the heroin question where we had a young boy and 
his dad who was a local elected official. They went public 
together and the young boy talked about how he started on the 
marijuana habit and how it evolved and how his dad had wanted 
to wish the best, and his dad cried in public, said--and I 
didn't want to acknowledge what was going on with my family, 
and I am coming forward today because I want to warn other 
parents. That was moving testimony of the interrelationships. I 
want to thank you again for your leadership.
    Dr. Joy.
    Ms. Joy. Good afternoon, Chairman Souder and members of the 
committee. In 1996, I think it was--I am forgetting my date--
the Institute of Medicine was asked by the Office of National 
Drug Control Policy to conduct an independent scientific review 
of the medical benefits of marijuana. And I served as the study 
director on that report and that's what I'll be talking about 
today is that report.
    We were asked to review the scientific evidence--it's not a 
legal review. The report makes no--takes no position on the 
legal status of medical marijuana. And I should add that we 
were also asked to look at the--examine the evidence of the 
gateway effect of marijuana.
    As such, this report represents the views and inputs of the 
Nation's leading scientists whom we assembled to provide the 
panel with information and so forth. What was striking about 
the study was the level of consensus on the scientific evidence 
of the therapeutic potential of medical marijuana and its 
constituent components I should add. And I'm going to move from 
there to just reviewing the recommendations for you.
    The committee concluded that canabinoids--and that's the 
category of drug of which THC is a part. There are other 
canabinoids in marijuana. Not all of them are strongly linked 
to therapeutic benefits. Canabinoids also exist naturally in 
the human body. The panel concluded that canabinoids likely 
have a control in pain modulation, control of movement and 
memory.
    Canabinoids affect the body in very different ways, not all 
of which is known, but a tremendous amount of new information 
has been learned from research in the past 10 years. And as a 
result of this new information, coupled with lack of 
information, the committee recommended that research should 
continue into the physiological effects of synthetic as well as 
plant-derived canabinoids, as well as the natural functions of 
canabinoids found in the body.
    The second recommendation concerned clinical trials. The 
committee did, in fact, recommend clinical trials. These are 
clinical trials of canabinoid drugs, meaning chemically defined 
drugs, meaning the standard pharmaceutical development pathway.
    This was derived from the committee's conclusion that there 
are scientific data that indicate the potential therapeutic 
value of canabinoid drugs, primarily THC, for pain relief, 
control of nausea and vomiting, and appetite simulation. They 
further noted that smoked marijuana, however, is a crude THC 
delivery system that also delivers harmful substances. And I 
will take an aside to note here that Marinol is not an 
equivalent for smoked marijuana, ``marijuana'' being the 
legally available THC. There is an important pharmacological 
difference between smoking a substance versus swallowing it, 
and that is rapid onset of action. So the committee recommended 
developing systems for delivery that permitted rapid onset of 
action.
    OK. Recommendation 3 concerned the multiple effects of 
canabinoid drugs which includes marijuana. The psychological 
effects of canabinoids, which include anxiety reduction, 
sedation and euphoria can influence their potential therapeutic 
value. This may be positive or negative; potentially 
undesirable for certain patients in certain situations and 
beneficial for others. One complication is that the euphoria 
can mask the perceived benefit. So the committee recommended 
that the psychological effects of canabinoids should be 
evaluated in any clinical trial.
    The fourth recommendation is based on the conclusion that 
numerous studies suggest that marijuana smoke is an important 
risk factor in the development of respiratory disease. Note 
that the committee did not say that it has been proven. It has 
not been proven, although it is true that marijuana smoke 
contains many of the same substances as tobacco. And the 
committee thus recommended studies to define the individual 
health risks of smoking marijuana to be conducted, particularly 
among populations in which marijuana use is prevalent. This is 
a safety issue, not a recommendation that these people use it, 
but an acknowledgment that there are many, many people smoking 
marijuana, and we know very little about the negative 
physiological health effects.
    OK. The committee was also asked to address the gateway 
drug. They made no recommendations about this. But they did 
note that in the sense that marijuana use typically precedes 
rather than follows initiation of other illicit drug use, it is 
indeed a gateway drug. But because underage smoking and alcohol 
use typically precede marijuana use, marijuana is not actually 
the most common and is rarely the first gateway to illicit drug 
use. There is no conclusive evidence that the drug effects of 
marijuana are causally linked to the subsequent abuse of other 
illicit drugs. That doesn't mean they don't precede them, but 
the causal link has not been established by any scientific 
studies.
    OK. So to summarize, the committee concluded that present 
data on drug use progression neither support nor refute the 
suggestion that medical availability would increase drug abuse. 
However, this question is beyond the issues normally considered 
for medical uses of drugs and should not be a factor in 
evaluating the therapeutic potential of marijuana or 
canabinoids. The committee discussed some of the scientific 
data on gateway drugs and I'll come back to that later in 
questioning. I don't think I have time to elaborate.
    The second to last recommendation which was the fifth 
recommended clinical trials of marijuana use for medical 
purposes being conducted, but only under limited circumstances. 
Trials should involve only short-term marijuana use, less than 
6 months. They should be conducted only in patients with 
conditions for which there is reasonable expectation of 
efficacy. They should be approved by institutional review 
boards and should collect data about efficacy.
    Now an important point here is that the goal of these 
clinical trials would not be to develop marijuana as a licensed 
drug, but rather to serve as a first step toward the possible 
development of nonsmoked, rapid onset canabinoid delivery 
systems.
    And the last recommendation--in the meantime, there are 
patients with debilitating symptoms for whom smoked marijuana 
might provide relief. The use of smoked marijuana for those 
patients should weigh both the expected efficacy of marijuana 
and ethical issues in patient case, including providing 
information about the known and suspected risks of smoked 
marijuana.
    So the last recommendation then states, smoked short-term 
of marijuana use, less than 6 months, for patients with 
debilitating symptoms such as intractable pain or vomiting must 
meet the following conditions: first, failure of all approved 
medications to provide relief has been documented; the symptoms 
can reasonably be expected to be relieved by rapid onset 
canabinoid drugs; such treatment is administered under medical 
supervision in a manner that allows for assessment of treatment 
effectiveness; and last, involves an oversight strategy 
comparable to an institutional review board process that could 
provide guidance within 24 hours of submission by a physician 
to provide marijuana to patient for specified use.
    And I'll point out that this is considerably narrower than 
any of the State ballot initiatives, but it does acknowledge 
the fact that, although the panel recommends traditional 
pharmaceutical development for the active ingredients and 
whatever synthetics can be manufactured, there remains the 
problem of people with debilitating and devastating conditions 
for whom none of our medications have proven effective. And 
that ends my comments.
    Mr. Souder. Thank you. It is great to have you with us, 
Congressman Lungren.
    Mr. Lungren. Thank you, Mr. Chairman. The way my back feels 
and as long as I waited to testify, I may be voting for medical 
marijuana before we leave here. Just a joke. I'm sorry.
    The subject of today's hearing, ``Medical Marijuana Federal 
Drug Law and the Constitution Supremacy Clause'' may at first 
blush appear to be overly legalistic and sometimes antiseptic, 
but upon reflection, goes to a core question which emerges with 
greater and greater vitality, and which if ignored, threatens 
to overwhelm society's appropriate concern about the drug 
problem itself.
    Variously stated, it boils down to this: Has the war on 
drugs trampled on our constitutional framework and our 
constitutional rights? While I would vigorously answer this in 
the negative, the very fact that we are having this inquiry 
today compelled by various State initiatives purporting to 
liberalize or liberate the use of marijuana and other schedule 
1 controlled substances needs to be addressed.
    It is a fact that an uncertainty of approach has been 
allowed to develop throughout this country. Real doubt about 
the chances for success has taken hold. Wealthy advocates of 
partial or total decriminalization or legalization of drugs, 
such as George Soros, have effectively manipulated this doubt 
using their wealth to succeed with various schemes to 
legitimize the use of illegal drugs under certain 
circumstances.
    In California, for instance, Mr. Soros and his allies 
outspent the opposition 100 to 1 in gaining passage of the 
medicinal marijuana initiative. What is most important to 
understand is that they are succeeding increasingly to 
undermine our society's previously consistent opposition to 
drug use, particularly among our youth. This assault on the 
common distaste for drug use, and all that it causes, has 
attracted partial support of many common sense individuals who 
have become confused about the purposes of our government's 
response to the problem.
    I think we need to acknowledge that some of this has 
occurred as a result of a perceived refusal on the part of 
government leaders to at least reexamine some parts of the war 
on drugs to see if and where we may have made mistakes. With 
the new administration comes a unique opportunity to review, 
reform and reinvigorate the campaign against drug abuse, and I 
truly believe that President Bush's philosophy of compassionate 
conservatism can address this problem in a special way, since 
within its parameters there is no need to apologize for being 
both tough and loving.
    It seems to me we have to recognize that drug abuse has 
lost its place on the national stage. We have to reassert the 
fact that it is a national problem or, more precisely, a 
national tragedy, which touches every part of our social 
fabric. Hollywood has finally reawakened to this. The movie 
Traffic is an example of that. I give Traffic high marks for 
illustrating the reach of this problem, the magnitude of the 
problem. I give it lower marks, however, for the conclusion, 
which I suggest suggests to us that there is no answer. That 
this is an insoluble problem. It is solvable, we just have to 
put our minds to it.
    But as one who has participated in this fight on both the 
Federal and State levels, as well as interfaced with the 
private sector, I believe that discordant messages which we 
have seen for the last 8 years at least, and divided leadership 
are the ingredients for failure, if not disaster. I have seen 
what happens when there is a major policy cleavage in law 
enforcement at the Federal and State levels.
    I can go into that specifically if you would like to talk 
about that, or at State and local levels. Not only does the 
failure to agree render cooperation impossible for the task at 
hand, it also tends to make cooperation on associated or 
related activities difficult as well.
    At the very least, inertia is often a by-product. The drive 
to create many different laws concerning illegal drugs 
throughout the country will only exacerbate the problem, and in 
the process, confuse the citizens that our laws are supposed to 
serve. I would suggest there are few things more debilitating 
to a representative democracy than a failure to make clear what 
is criminally prohibited and what is not. This is particularly 
true of a subject as serious and pervasive as drug abuse.
    As the legal analysis for this question reaches its zenith 
in the U.S. Supreme Court considerations, suffice it to say 
that the supremacy clause of the Constitution makes it clear 
that to whatever extent Congress has exercised its legitimate 
powers, any inconsistent State powers are prohibited. It is 
hornbook law that a State law would be held void if it would 
retard, impede, burden, or otherwise stand as an obstacle to 
the accomplishment and execution of the full purposes and 
objectives of Congress in enacting the Federal law.
    But whatever decision is ultimately rendered, my hope is 
that the importance of congressional decisions commenced some 
90 years ago and their progeny to protect the public from 
health charlatans and flim-flam artists selling their special 
elixirs will be recognized. A successful effort in the 
wholesale overturning of the FDA and allied enforcement 
mechanisms would be disastrous for the country. Yet as 
important as the question about the supremacy clause may be, an 
equally important question looms. Does the Federal Government 
and various State governments, for that matter, stand the 
chance of being repudiated by the public on the matter of drug 
legalization? I suggest here we might take a healthy dose of 
humility in the political sector. While I have strong doubts 
about the efficacy of marijuana for medical purposes, I have 
discovered, at least in California, that the public believes 
this is a question that should be seriously considered.
    The reluctance of most in government to permit a full-scale 
medical and scientific testing of the possible medical uses of 
marijuana and its constituent parts has created an environment 
in which the citizenry at large opts for the only proposals 
presented to them. While such initiatives, and I think this 
goes to the question you asked Congressman Cummings, why are 
people voting for them? I don't think they're stupid. There's a 
reason. I think they're wrong in California because such 
initiatives result in putting the cart before the horse. That 
is approving marijuana for medicinal purposes before it is ever 
proven to be safe and effective in such circumstances.
    But why do they do that? I think they vote for compassion 
or sympathy over law enforcement concerns. This growing 
movement has the potential of dramatically altering the Federal 
presence in the drug battles. While I can recite the past 
studies on marijuana, I know they are falling presently on deaf 
ears. That's why I support a full-blown study in California. In 
order for it to be effective, the Federal Government needs to 
grant the proper waivers. I would suggest that would be an 
appropriate thing. And I think we all should agree that we will 
abide by the scientific decisions that are made. Treat it as we 
would treat other studies of drugs. I don't think that they are 
going to be successful, but if they are, we will allow that to 
direct our decisionmaking.
    Mr. Chairman, one of the things I learned through the 
experience of prop 215 in California is how voters will be 
willing to upset long established enforced law schemes if they 
are convinced of a compassionate necessity. The argument which 
drove the proposition's electoral success in California was 
simple, and this is the way it was stated. People with chronic 
pain should have marijuana as a medical option if all else 
fails to alleviate terrible pain, and if the underlying 
provable facts support the proponents, who could be against it? 
It is difficult to be able to analyze that, though, in the heat 
of a campaign.
    It occurs to me that as the medical community has begun to 
more fully appreciate the reality of pain and concomitant need 
to address it effectively, the medical regulatory nexus needs 
to adjust accordingly. Use of controlled substances under 
proper medical indication should not be denied in pain 
management circumstances for fear of possible abuse and other 
scenarios. Greater recognition by HMO's and insurance companies 
of the appropriate and efficacious applications of pain 
management and treatment are in order.
    In a similar vein, I would suggest we should reexamine the 
role of mandatory minimum sentences in certain types of drug 
cases, and honestly determine, for instance, whether the 
treatment of crack cocaine within the criminal justice system 
has had a fairly disproportionate impact on minority youth. I 
remember being on the subcommittee that wrote that law in the 
80's. And I remember we responded to cries from the minority 
community that crack cocaine was killing the community. That's 
why we went so hard on the penalties involved with crack 
cocaine. We did it for a good purpose.
    If, in fact, there's been a disproportionate impact, if, in 
fact, it has disproportionate impact on the community and make 
it look like we treat different races or different groups 
differently, then we ought to take a look at it. I know what we 
did and why we did it, but I think we ought to recognize, or at 
least I recognize now, at least in my State, that in many ways 
we are losing, you might call it the public relations, or I 
would call it the public opinion battle. And in order to get it 
back and get us back onto what we need to do, which is to have 
a single message on drugs from the top to the bottom having us 
all working together, government and nongovernment, all parts 
of our culture together.
    I think some of us who believe very, very strongly in this 
ought to at least have an open mind toward considering some of 
these things that I suggested. I thank you very much, Mr. 
Chairman, for your time.
    [The prepared statement of Mr. Lungren follows:]

    [GRAPHIC] [TIFF OMITTED] T2258.037
    
    [GRAPHIC] [TIFF OMITTED] T2258.038
    
    [GRAPHIC] [TIFF OMITTED] T2258.039
    
    [GRAPHIC] [TIFF OMITTED] T2258.040
    
    [GRAPHIC] [TIFF OMITTED] T2258.041
    
    [GRAPHIC] [TIFF OMITTED] T2258.042
    
    Mr. Souder. I thank you, Congressman Lungren, Attorney 
General Lungren. Let me say, I think we will be forced into 
this reevaluation whether we want to or not because the general 
public is demanding changes and we need to figure out, for 
example, in the penalties on differentials on powder and crack 
whether we lower one or raise the other, but there ought to be 
an equivalency, and we do have to look at unintended 
consequences and we need to be willing to look at variables.
    But I want to come back to a couple of things, a couple of 
questions for Dr. Joy here. I want to make sure we have in the 
record a couple of key quotes. In 1997, Surgeon General David 
Satcher wrote that there is no scientific sound evidence that 
smoked marijuana is medically superior to currently available 
therapies, including an oral prescription medication containing 
the active ingredient in marijuana. Now your statement, I 
understood in the recommendations to say, that the primary 
things was speed in smoked. Is that how you would reconcile 
this statement which is somewhat contrary?
    Ms. Joy. I wouldn't even want to say what the primary 
difference is, but there is an important pharmacological 
difference in the onset of the drug effect depending on how it 
is delivered. If you take it in a pill form it's longer, and in 
the case of Marinol it is much more variable. If it is inhaled 
the effect is within minutes.
    Mr. Souder. Why would the surgeon general have said there 
is no scientific sound evidence that that is medically 
superior?
    Ms. Joy. I didn't say medically superior. I said it's very 
different. Personally, you can imagine if you were suffering 
severe nausea, you might like a rapid onset. I am not going to 
say what he's thinking, though.
    Mr. Souder. Yeah, but I would assume relief is part of 
that, but it's not necessarily. Now he also wrote that the 
Center for Disease Control also supports HHS Secretary Donna 
Shalala, who stated California's proposition 215 and Arizona's 
proposition 200 are particularly dangerous and misguided 
efforts, and I oppose them in the strongest possible terms.
    You made it pretty clear that the guidelines, particularly 
your sixth point, have nothing to do really with California 
because you said they had to work under close supervision, 
there was, I think, limited quantities, you had to have 
exhausted all other remedies, none of which are in the 
California law or Arizona.
    Ms. Joy. You are correct in stating that the IOM panel's 
recommendations are different from California law and more 
strict. The IOM recommendations say nothing about quantity.
    Mr. Souder. OK. I misspoke. Sorry. In 1999, ONDCP Deputy 
Director Donald Vereen reviewed the study in congressional 
testimony concluded, there is little future in smoked 
marijuana, a medically approved medication. This is because 
long term harms of smoking made it a poor delivery system and 
because cannabis plants contain a variable mixture of 
biological compounds and don't meet the modern expectation for 
consistency.
    Can you comment on those two things? The delivery system 
and the consistency question, and then respond also to this 
question. Do you know of any approved medicine in smoked form?
    Ms. Joy. I can't think as fast as you can talk. What you 
said were quoting Don Vereen saying was almost a verbatim quote 
from the report itself. So yes, we would concur with that. Then 
you said something about the harms, did you?
    Mr. Souder. I said do you know any approved medicine in 
smoked form.
    Ms. Joy. No.
    Mr. Souder. So there would be no reason--how could--why 
wouldn't you have--I don't believe in her testimony, she went 
through all this, but Ms. Nagel has an extensive--in the 
written testimony how the FDA tried to isolate the components 
in marijuana into other forms. Why wouldn't that be the logical 
way to do it if there is no smoked alternative in any form of 
authorized drugs? Why wouldn't the goal rather than study, the 
impact of marijuana, why wouldn't the goal be to isolate the 
subcomponent of marijuana?
    Ms. Joy. That is the goal.
    Mr. Souder. So Marinol, Nabilone, Cesamet, I think that's 
one of the----
    Ms. Joy. The name is Nabilone.
    Mr. Souder. Is that brand name for it?
    Ms. Joy. Yeah.
    Mr. Souder. That in one of those, it's moved from schedule 
1 to 2. Marinol went to schedule 3. The goal here is not to--in 
fact, it isn't marijuana that's medicinal. It's a component in 
marijuana that can be isolated and turned into therapeutic 
drugs.
    Ms. Joy. What I said is the goal is the development of 
rapid onset cannabinoids drugs, which would include THC, but 
not be restricted to it. There are a number of synthetic 
compounds that are much more effective.
    Mr. Souder. So shouldn't the research be focussed on how 
these alternatives that don't have downsides as smoking other 
dangers as gateway drugs, why wouldn't the focus, if the mere 
question was how to address the health aspect, why wouldn't the 
focus be on how to get more of an immediate delivery system?
    Ms. Joy. That was recommendation No. 2. Should I read it 
again?
    Mr. Souder. No.
    Ms. Joy. That's exactly what the recommendation is. There 
is a number of layers to the recommendation. One is recognition 
of the fact that there are a lot of sick people out there, and 
I'm not talking mentally, I am not trying to make a judgment. I 
am talking about people in poor health who smoke marijuana. We 
have very little information about what the physiologic effects 
are. Many believe that the data on the immune system are highly 
inconsistent. So that's the basis of that recommendation. Some 
of the recommendations are where to go forward and some of the 
recommendations are how to cope with the situation as it 
stands.
    Mr. Souder. Congressman Cummings.
    Mr. Cummings. I have been listening and I tell you, Mr. 
Lungren, I want to thank you for your testimony. You are the 
first person since I have been here that explained to me why 
there is such a difference between the penalties of crack 
cocaine and powder cocaine, the first one.
    Mr. Lungren. I was here when we did it.
    Mr. Cummings. It is incredible because Black people are 
being locked up big time, and we don't hear any cries so much 
about that and there is such a big difference in the 
sentencing, it is phenomenal. And I think you are right, we 
definitely need to send a message, whatever it is, and I think 
the chairman just mentioned it too, there needs to be a 
consistent message whatever it is that if you are going to 
penalize the use of drugs, you ought to penalize it wherever 
they're found and not base it upon what form they come in. Were 
you getting ready to say something?
    Mr. Lungren. One of the things I thought worked very well 
in the 1980's was criticized by some as being inelegant. It was 
Nancy Reagan's ``just say no'' campaign, but that ``just say 
no'' rhetoric or rubric stood for an overall consistent policy 
that was understood. And believe me, we came from somewhere 
else because we didn't have it before and I am not making any 
political aspersions.
    We got Republicans and Democrats to work together in the 
Congress along with the administration. We got Hollywood to 
work on it. Hollywood took out the glamorization. Then we seem 
to all fall off the wagon. We thought we solved the problem. 
Hollywood went back to glamorizing drugs. They're not making 
public service announcements. And I will tell you in that 
vacuum began the rebirth of the efforts we see in initiatives. 
And look, I know some very sincere people who opposed me when I 
was opposing proposition 215 in California who truly wanted it 
only for medicinal purposes. I know others who want it as a 
Trojan horse. I know others have been talking about it for 
years and years about the red herring. And I fought all those 
battles.
    But frankly we lost in California. If I had $2 million as 
the other side--that's all they spent was $2 million. We had 
$20,000, that's all we could raise against it. And yet the 
message is very simple. I have people come up to me all the 
time now who are common sense folks, who are overall against 
drugs, and they say what's wrong with a little marijuana if we 
are going to help people?
    We are losing that battle and what I see is the experience 
you have in Alaska, that you have the 10 year experiment 
brought about by the Supreme Court decision in Alaska where 
marijuana was OK, was allowed for private use, not medicinal 
use, private use by adults but not for kids.
    And what happened during that 10-year period of time? The 
marijuana use by kids in Alaska doubled from what it had been 
and remained doubled. It was in the rest of the country. So 
consistency is important. In terms of the minority community, 
obviously, I don't speak for the minority community, but I have 
tried to watch it and work with it and deal with it, and I see 
the distrust there and I see the questioning there. And when 
people say to me by God, it's unfair. You're locking people up 
in the African American community for having crack cocaine. 
It's no different than powder cocaine, I have to come back and 
remember, I remember the subcommittee when we were meeting in 
the Judiciary Committee, and one of the members came in and 
represented--a part of his community was African American, poor 
inner city, and he said this is killing the community. We got 
to do something about it. We got to get these people off the 
street. We got to have the toughest laws we got. Frankly, that 
is why we did it. We didn't do it to punish the community. We 
thought we were responding in an appropriate fashion because we 
heard the testimony, which was it's far more potent. It's 
having a disastrous impact. And frankly, I think it would have 
been unfeeling of us not to have responded. What I'm saying now 
is if we've had the chance to look at it after 10 or 12 years 
and we say hey, we did it with some good intentions, it's had 
some unintended consequences.
    Mr. Cummings. Big time, big time.
    Mr. Lungren. Let's look at that so we don't lose the 
support of that part of our community which we need for 
consistent anti drug policy.
    Mr. Cummings. But just as important, losing all of these 
young people who are spending time in jails when white folks 
with more cocaine aren't spending that kind of time in jail.
    Mr. Lungren. Of course. Let's recognize the difficulty at 
times. Where are the buys taking place?
    Mr. Cummings. I understand that. I am talking about powder 
cocaine and crack cocaine.
    Mr. Lungren. I understand.
    Mr. Cummings. It's not just getting more people on your 
side. It is the fact that so many African American young people 
are sitting and rotting in jails and that's--and you know it's 
so interesting. But going to you, Mr. McCollum, former 
Congressman Lungren states in his testimony that the use of 
controlled substances under proper medical indications should 
not be denied in pain management circumstances for fear of 
possible abuse in other scenarios. He also supports Federal 
medical trials to determine whether marijuana for medicinal 
purposes are safe and effective. How do you feel about that? Is 
that accurate? Don't let me misquote you.
    Mr. Lungren. I didn't want--if I misstated and said we 
should all use illegal drugs, what I'm saying is those 
classified scheduled drugs that are available for prescription 
but that many doctors, at least in my experience, are fearful 
of using, or have not been educated, understand that they can 
be used now, need to be done. Pain management is a relatively 
recent development in the area as a specialty in the medical 
community. And I think we ought to make sure our doctors are 
trained such that they understand the uses of these. And the 
other thing, well, I think I will stop right there.
    Mr. McCollum. If I can respond. I don't think anybody is 
opposed to the scientific study and development of remedies for 
pain or for disease in whatever form. We just want to see, and 
I want to see the process followed legally. If the Food and 
Drug Administration approves a prescription or direction or we 
have guidance from the American Medical Association on the 
proper efficacy of marijuana compound, then I think all of us 
would be happy with that. But right now that's not the case, 
and a lot of people are stretching that.
    I would like to make one comment, too, because I happen to 
share a lot of what Mr. Lungren said, a lot of people don't 
know that I served in that same Congress with him when the 
crack powder issue came along, and I also served as chairman of 
the Subcommittee on Crime for the last 6 years, and prior to 
that, with Mr. Hughes when he was chairman.
    We tried both when the Democrats had control of the 
Congress as well as the Republicans, quite a number of us, to 
put the two together, to find a common denominator. We had 
those numbers for a while and we couldn't get the votes for 
them. And I certainly would encourage those who continue to 
have an interest in it to work on that because you could raise 
the powder and lower the crack penalties and come up with a 
number. It's quite possible that you can do that. You can argue 
over what they should be, but they shouldn't be as different as 
they are now.
    Mr. Cummings. Thank you.
    Mr. Burton. Congressman Barr.
    Mr. Barr. Thank you Mr. Chairman. Ms. Nagel, thank you for 
being here, and please convey our support and admiration for 
the work that you and your colleagues at DEA do, and we 
appreciate your work on behalf of our country.
    Ms. Nagel. Thank you, sir.
    Mr. Barr. On page 5 of your statement at the very 
beginning, you say in 1995 the DEA received a petition to 
transfer marijuana and THC from schedule 1 control, etc. At the 
end of that paragraph, you say on March 20, 2001 the DEA denied 
the petitioner's request for rulemaking marijuana on both legal 
and scientific grounds. Was the work that DEA put into its 
decision here, was it fairly extensive or was it very cursory?
    Ms. Nagel. No, sir, it took several years. We relied on the 
government scientists and medical experts at Health and Human 
Services, exhaustive reviews at the same time that the 
scientists worked for me, our medical people did a review. And 
what's important, the petition never addressed the medical uses 
of marijuana, the petition only addressed the abuse because 
you're in schedule 1 for two reasons, medical use and the 
potential for abuse. This petition only addressed the abuse 
potential, and that's what everyone did research on, exhaustive 
4 years, I have read it. There was no evidence based on abuse 
to move marijuana out of schedule 1, none.
    Mr. Barr. Are there any petitions pending to transfer 
marijuana out of schedule 1 on medical grounds?
    Ms. Nagel. No, sir.
    Mr. Barr. Have you had such petitions presented to you?
    Ms. Nagel. I believe several years ago we had one under two 
or three administrators ago, and at this point, until we get 
the scientific and medical basis to act, we can't, we can't 
move it out of schedule 1 without that.
    Mr. Barr. Thank you. Thank you. I yield to the gentleman 
from Florida.
    Dr. Weldon.
    Mr. Weldon. I thank the gentleman for yielding. I had a 
question for you, Dr. Joy. You referred to the report where it 
stated that more research was needed, possible use of 
cannabinoids in a clinical situation where all available drugs 
had been exhausted, I think is the term that you used. Did the 
Institute of Medicine study at all how often that clinical 
situation actually occurs?
    Ms. Joy. No.
    Mr. Weldon. OK. I had a feeling that was the case.
    Ms. Joy. It would be difficult to get that kind of data.
    Mr. Weldon. Well, just from my clinical experience, I never 
saw it. I only saw one case where a person was smoking 
marijuana. It was a young man who had lymphoma and he was not 
particularly experiencing a lot of pain, he was getting 
chemotherapy for his lymphoma, but it was pretty obvious he was 
getting high, at least based on my clinical assessment of the 
patient. And as I stated in my opening statement, I just never 
saw that. And frankly I was a little disappointed in the 
Institute of Medicine's report for even making that statement, 
because it implied there is some validity to the arguments 
being put forward by those who are advocating the legalization 
of marijuana because you know, really, when you think about it, 
there are a lot of countries in the world and there are a lot 
of pharmaceutical companies all over the world, and if there 
was some real potential for this drug, I would think that 
somewhere it would be researched and studied and demonstrated 
scientifically.
    The Trojan horse issue which Dan Lungren brought up, I 
think, is clearly operative in this whole marijuana debate. And 
I think George Soros has made no bones about it, that he wants 
to see marijuana legalized and he is the one funding a lot of 
these initiatives.
    I had another question, you also, in the Institute of 
Medicine report, you talk about the development of a rapid 
delivery system to study this. There again it relates to my 
other question, why would you need this if there's really no 
real clinical need for the drug?
    Ms. Joy. Can I interject, because I'm having trouble 
tracking all your questions. The committee does feel that there 
are certain unmet needs. The treatment of pain is notoriously 
difficult, especially neuropathic pain. So the committee does 
see an unmet need. It is very difficult to assess the breadth 
of that need.
    Mr. Weldon. If I could just comment, my experience, and I 
took care of a lot of chronic pain patients usually in 
coordination with an anesthesiologist, and my experience with 
chronic pain is that it's usually the clinicians don't know how 
to manage it and that's why these patients have chronic pain, 
including people with things like peripheral neuropathies and 
reflex sympathetic dystrophies, things that are notoriously 
very, very hard to manage.
    But in the course of the research, was there any scientific 
evidence that you unearthed at that point? Marijuana was useful 
in those clinical situations?
    Ms. Joy. Well, one of the members of our panel was a 
leading neurologist in the treatment of pain, and he presented 
a different scenario than you're describing. It's not really my 
position to speak to who said what. Your experience was 
different.
    Mr. Weldon. Please forgive me. We've been beating you up.
    Ms. Joy. I'm OK with that.
    Mr. Weldon. You were the staff person, and you put together 
the report, but you were not personally responsible for the 
scientific opinions in the report or am I mistaken?
    Ms. Joy. The Institute of Medicine is responsible for the 
scientific opinions. I know the report probably better than 
anyone else. It's a little unfair of me to speak outside the 
report since I am here representing the report. But I can say 
that one of the panel members was a neurologist who specializes 
in pain. I can say that very recent scientific data are 
extremely compelling in terms of cannabinoids acting, and this 
is in animal studies, on different pain pathways than the 
traditional morphine, and also in a way that might decrease the 
need for morphine in the treatment of pain. So scientifically, 
there are--well.
    Mr. Weldon. Those are animal studies that showed 
cannabinoids that acted on different pathways. There have been 
no clinical trials of marijuana demonstrating that marijuana is 
useful in the treatment of pain, correct?
    Ms. Joy. You are absolutely right, and I think there's one 
being started in California on the treatment of neuropathic 
pain, and that wasn't available at the time of the report.
    Mr. Weldon. The only clinical trials I know of are for 
marijuana being used as an antiemetic, correct?
    Ms. Joy. There were clinical trials in the 70's as an 
antiemetic. There were small clinical trials. They weren't all, 
in fact, they weren't all terribly wonderful. You may already 
know this, this is in the report--a lot of people----
    Mr. Weldon. It was not very effective?
    Ms. Joy. A lot of people in those clinical trials in the 
cancer patients in the 70's, the dropout rate, I'm forgetting 
now, is 25 percent.
    Mr. Weldon. They didn't like the effect on their level of 
consciousness?
    Ms. Joy. Right.
    Mr. Weldon. The mind altering properties?
    Ms. Joy. Right.
    Mr. Weldon. The Institute of Medicine referred to the 
gateway issue, and you made some statements about that. If you 
could just elaborate a little bit. The reviewers, or the 
members of panel, acknowledge that most people who go on to use 
other drugs start with marijuana, but then they go on from 
there to sort of conclude there's no cause and effect 
conclusion there. You can't--but were they not really talking 
about a scientific process?
    It's very hard to scientifically prove that marijuana leads 
to heroin, but you can clearly demonstrate by just interviewing 
heroin users that a significant percentage of them start with 
marijuana, and therefore it is reasonable to conclude it's a 
gateway drug. But the IOM report seemed to imply that we can't 
prove that. But that's because it would require a large 
scientific study where you would have to take people and give 
them marijuana and see how many of them go on to heroine.
    Ms. Joy. Well, there have been large epidemiological 
studies. If I may, I'll read something about the gateway effect 
story. It's a little confusing because now, as I read before, 
the report does state that in the sense that it precedes the 
use of cocaine and heroin, it is a gateway drug. In the sense 
that it causes a person to use those substances, there's no 
data.
    Mr. Weldon. There's no scientific evidence to back that up, 
is that not what they have concluded?
    Ms. Joy. There's scientific evidence to back it up, that 
marijuana precedes cocaine and heroin uses. It also adds what 
precedes marijuana use is usually underage alcohol and tobacco. 
That is the first step in the pathway to abuse.
    Most of the gateway studies, and I'm thinking of Denise 
Kandel, who has done really extensive studies out of Columbia, 
are about one-time-only use, and they don't address what we 
call abuse. So that included, in that study, people that tried 
it only once as opposed to who abused it, understanding that 
for some, you might say even once-only use is abuse, but abuse 
in the definition of the DSM IV, which is the diagnostic and 
statistical manual for psychiatric disorders.
    The trick about the gateway issue, I will read from the 
report now, ``the gateway analogy evokes two ideas that are 
often confused, the first more often referred to as the 
stepping-stone hypothesis, is the idea that progression from 
marijuana to other drugs arises from pharmacological properties 
of marijuana itself.'' And there's no evidence to that 
particularly--well, OK I'll go on.
    ``The second is that marijuana serves as gateway to the 
world illegal drugs in which youths have greater opportunity 
and are under greater social pressure to use illegal drugs.'' 
That is the one that is most often used in the scientific 
literature, and that's where the sequence comes from.
    Mr. Souder. Dr. Joy, one concern I have that you have 
raised earlier, you don't address what most of us say, and that 
is, most of us don't maintain that there is necessarily a 
physical relationship or physiological relationship 
necessarily, although there is some certain causal relationship 
about the people that you are with, but in fact it's an 
experiential or psychological relationship, was that addressed? 
For example, you want to get high, the high kind of goes dead 
after a while, and you want to get a further high. You didn't 
address that in either of those.
    Ms. Joy. That's a social----
    Mr. Souder. Social, the implication was, in our earlier 
panel, was is that the social was because you're involving 
illegal, and you used this earlier in your testimony as well, 
illegal alcohol, illegal tobacco, therefore you're in a circle 
where you're getting exposed to an illegal drug.
    Ms. Joy. In my earlier statement, I did not say anything 
about social and physiological. Here what I wanted to do is 
make a distinction between the idea that you somehow changed 
your brain or something, making it want more stimulation of a 
stronger nature. I might not be quite understanding what you 
were saying, but I did want to show you how the panel had 
separated the two and what they were talking about.
    Mr. Souder. I think there is a distinct third that you 
didn't address there. There is a social pressure, which you 
alluded to, and a physiological addiction which would say that 
marijuana may physiological--it's much what we argue about the 
other habits in your life, that is the habit an actual physical 
addiction, for example, alcohol for many people becomes a 
physical condition, to some degree it becomes a psychological 
dependency. And that's not social. A social would be arguing 
that you're at a party and you're a social drinker merely to 
fit in. That's merely a different category, and if that's not 
in there, that's the one we argue most about.
    Ms. Joy. You know, I feel like I'm going to be stepping out 
of bounds if I start talking about what substance abuse 
researchers talk----
    Mr. Souder. You have read the results.
    Ms. Joy. But that's not in the report, and I'm not 
comfortable going beyond that.
    Mr. Souder. Do you have anything?
    Mr. Weldon. I just had a couple of questions for Ms. Nagel. 
I just wanted to clarify there was a court case you referred to 
where the DEA was going to go after doctors who recommended 
marijuana where it is not approved. It is a schedule 1 
substance. And the court ruled that you could not do that. It 
was a district court, I think you said.
    Ms. Nagel. It's the Federal District Court in California. 
It's an injunction against the DEA.
    Mr. Weldon. Is that part of case that's being heard 
tomorrow?
    Ms. Nagel. No, sir, it's totally separate.
    Mr. Weldon. Is that case being appealed by the DEA?
    Ms. Nagel. The Department of Justice, I believe, has filed 
a notice for appeal, but has not, in fact, filed its appeal 
yet.
    Mr. Weldon. When did the Department of Justice file its 
notice for appeal?
    Ms. Nagel. It has been some time.
    Mr. Weldon. Was it the previous administration, the Clinton 
administration?
    Ms. Nagel. Yes.
    Mr. Weldon. Thank you, Mr. Chairman.
    Mr. Souder. I have a couple of additional things I want to 
put in for the record, and then we may give you some each 
additional written. Congressman McCollum, your resolution that 
passed Congress saying that we should not move marijuana off of 
schedule 1 and not medicinal is not one of the main arguments 
in the solicitor general's case tomorrow. Could you explain 
what your view of the effect and meaning of that provision was 
for the record?
    Mr. McCollum. For the record, Mr. Chairman, my view and I 
believe it is the congressional view, it should be very clear 
that marijuana is indeed intended by Congress to be a schedule 
1 drug. It would not have been done had we thought there would 
be medical utility, because obviously schedule 1 drugs prohibit 
that. It also is a fact that we didn't have any evidence then 
any more than we have today that any official body that we 
condone at the Federal level, like the Food and Drug 
Administration, to make decisions on medical efficacy of use of 
properties like this had come forward to anything like this to 
suggest we should alter this schedule. So the resolution was 
pretty straightforward in its restatement of the basic law and 
our support for the Controlled Substances Act in the keeping of 
the marijuana on schedule 1.
    Mr. Souder. And I wanted to ask Congressman Lungren, 
proposition 215, understanding the--I agree with your 
fundamental premise that the reason we're losing these 
referendums is the compassion question. And we have to figure 
out how we're going to deal with this politically, because it's 
undermining the broader question, but in proposition 215, you 
describe that there were multiple different types of people who 
supported it. If it was really for medicinal use, why would it 
have not contained the close restrictions that were outlined in 
that report? And in California, or another way to say this is, 
in California, do you believe this is, for the most part, being 
used in narrow things where everything else has been exhausted, 
where it's under controlled prescriptions, where the people are 
under observation, that it's guaranteed for a short-term period 
or any of those type of limitations? Because we certainly have 
heard new stories and seen things on TV of clubs and all sorts 
of things.
    Mr. Lungren. Well, there's a couple of different questions 
there, and a lot of people confuse it. I moved to close down 
the Cannabis Buyers Club in San Francisco prior to the passage 
of 215. They claimed they were operating only for medical 
necessity, yet we had undercover operations there that showed 
them selling to teenagers, showed exposed secondhand marijuana 
smoke to infants. They tried to show how they were following 
what the law would be by only giving it to people for an 
expressed medical purpose. And I'm not making this up.
    One of the reasons given was for treatment of yeast 
infection. And you have to--the minds boggles how that could be 
relevant whatsoever. But the law was written with some 
specificity. Not as much as you suggested. And we argued when 
we tried to then enforce the law--which is a limitation on law 
enforcement.
    People don't understand, it basically is stated as an 
affirmative defense for someone who is charged with the 
continuing prohibition against marijuana possession and use in 
the State of California. So it's a limited affirmative defense 
to an individual who uses it. And it is also supposed to be a 
limited defense to someone who possesses it for his or her own 
personal use for medical purposes, or is a caretaker of someone 
else that went through the definitions of caretaker. But as you 
can imagine, some of those who supported it tried to expand it 
beyond that.
    This whole argument about this Cannabis Buyers Club out of 
Oakland and so forth, the law does not change, the underlying 
law in California with respect to operation of something like a 
Cannabis Buyers Club. They claimed after the law passed, after 
the proposition 215 passed, that it's impossible if you give 
someone the right to have this medical marijuana, and then 
don't give them the ability to buy it somewhere.
    You have created an inconsistency in the law. We all know 
there are inconsistencies in the law. The fact of the matter is 
that wasn't part of it. And I think those who frankly wrote the 
law didn't put it in because they knew the voters would 
probably vote against it if they knew that was part of it. But 
what's happened is you have different counties interpreting the 
law differently, some allowing cannabis clubs, some not, some 
allowing growing in their counties. In other counties 
prosecutions are taking place right now, even though the 
defense is hey, we're only growing it for sale on a cost basis 
to a cannabis cooperative.
    And so if you think there is a disconnect between Federal 
and State law enforcement, we also have a disconnect between 
State and county or county to county in the State of 
California. It is not written with the specificity that you 
speak to, and that was one of the arguments I made in fighting 
against it. The commercials and all of the public statements on 
behalf of it focussed on as was focussed on by a previous panel 
member here today, the chronically ill, the AIDS patients, the 
wasting AIDS patient, the cancer patient, and I think people 
responded to that, but the law does not limit it to that.
    Mr. Souder. This is the last question for you, and also Ms. 
Nagel, if you could address this. My understanding basically in 
how law enforcement is working and our ability--we've given 
more flexibility as we have brought a DEA office into my home 
area of Fort Wayne, IN to have, in effect, major cases kind of 
move up the chain because Federal law can be tougher in 
enforcement. And in fact, because of a more, there isn't any 
other way to say it, a more general tolerant approach to 
marijuana usage in the United States, that the bulk of smaller 
cases in law enforcement on marijuana have fallen to the local 
county level, to some degree the State level rather than at the 
Federal level. And if State law then undermines the beginning 
cases at the marijuana level at the local level, and if in 
fact, to add one additional variation of this, as you said, if 
it varies by county, then certain counties can become conduits 
for other counties that are choosing to interpret the law 
differently.
    For example, a major case in California right now is 
turning out to be a provider of marijuana to much of the United 
States and are coming up with unusual protections, which is why 
we have national law. I want to ask for the record, is it true 
that, in fact, we move marijuana--have moved marijuana 
enforcement mostly to the local and State level, and the DEA 
other than major bust cases on interdiction, will tend to deal 
with cocaine and heroin, and does this not, then, at the State 
level and medicinal marijuana, things not defined tightly, put 
at risk our entire enforcement process on marijuana?
    Mr. Lungren. Mr. Chairman, I will just answer it in a 
couple ways. No. 1, it has always been the case that you have 
more law enforcement officers at the local and State level than 
you have at the Federal level, even with the specialized 
expertise of the DEA. And so DEA, in other words, is spread 
more thinly across the country than local agencies. So the 
primary jurisdiction for marijuana busts of individuals has 
been in the past at the local level, except when you get to 
larger quantities.
    We have also had, in the past, some U.S. attorneys 
limitations on the prosecutions they were taking had to be a 
huge amount, what I thought were huge amounts before they would 
have prosecutions.
    Second, I would say in some areas, there's been very good 
cooperation with the DEA and locals. But I can tell you a 
particular experience I had in California in which DEA was one 
of the first ones involved in a major operation we had against 
a marijuana club. In fact, one of those that invited us in and 
worked very hard on them, and then when it came down to making 
the final decision, somehow they were called off.
    And so you can see the difficulty you have when you have 
very different standards approaching a very serious problem 
that goes across State boundaries. I mean, there's just no 
doubt about it. It is a recipe for disaster.
    Mr. Souder. Mrs. Nagel.
    Ms. Nagel. DEA's primary responsibility is the largest 
international, largest growers, trying to go with the highest 
level violators we can. With the laws, particularly in 
California, have created confusion county to county, and it's 
strained our relationships with our partners because they have 
turned to us, and when I spoke to the people in California, 
they're telling me they get phone calls from sheriffs begging 
us to come to take marijuana because they've been ordered to 
give it back, and they just can't bring themselves to do it.
    They want us to step in and pick up what they are unable to 
do right now, because the State laws won't permit it. And we 
can't step in and take care of everything for them. So to a 
great extent it's not being done. The laws are not being 
enforced at the State level, and the Federal Government cannot 
and should not be responsible for doing it. It's created havoc 
with particularity in California.
    Mr. Souder. I thank you all for your testimony today and 
for taking the time to come. Clearly we have--we're entering a 
very difficult period and a very critical period with the new 
administration of how to focus on the battles, whether you 
refer to it as a drug war or as a cancer, and we need to make 
sure we have a national focus.
    Many of us remain very concerned that because of difficulty 
of our dealing with pain and suffering, we have, in fact, seen 
something that particularly in this last question, we have seen 
could, in fact, result in the de facto legalization of 
marijuana if, in fact, you can't enforce it at the local level, 
because the Federal Government in no way can step in what local 
law enforcement has been doing. And in Indiana, we can hardly 
battle our Indiana problems yet alone if it starts coming as it 
seems to in larger quantities from California.
    With that, I thank you all again, and our hearing stands 
adjourned.
    [Whereupon, at 5:25 p.m., the subcommittee was adjourned.]


</pre></body></html>
